<html>
<title> - INS SUPPORT FOR LOCAL EFFORTS: ARE THERE SUFFICIENT FEDERAL RESOURCES?</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]



 
 INS SUPPORT FOR LOCAL EFFORTS: ARE THERE SUFFICIENT FEDERAL RESOURCES?

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON CRIMINAL JUSTICE,
                    DRUG POLICY, AND HUMAN RESOURCES

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 19, 1999

                               __________

                           Serial No. 106-113

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform

                                 ______

                      U.S. GOVERNMENT PRINTING OFFICE
64-043 cc                     WASHINGTON : 2000



                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       ROBERT E. WISE, Jr., West Virginia
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
STEPHEN HORN, California             PAUL E. KANJORSKI, Pennsylvania
JOHN L. MICA, Florida                PATSY T. MINK, Hawaii
THOMAS M. DAVIS, Virginia            CAROLYN B. MALONEY, New York
DAVID M. McINTOSH, Indiana           ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
JOE SCARBOROUGH, Florida             CHAKA FATTAH, Pennsylvania
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
MARSHALL ``MARK'' SANFORD, South     DENNIS J. KUCINICH, Ohio
    Carolina                         ROD R. BLAGOJEVICH, Illinois
BOB BARR, Georgia                    DANNY K. DAVIS, Illinois
DAN MILLER, Florida                  JOHN F. TIERNEY, Massachusetts
ASA HUTCHINSON, Arkansas             JIM TURNER, Texas
LEE TERRY, Nebraska                  THOMAS H. ALLEN, Maine
JUDY BIGGERT, Illinois               HAROLD E. FORD, Jr., Tennessee
GREG WALDEN, Oregon                  JANICE D. SCHAKOWSKY, Illinois
DOUG OSE, California                             ------
PAUL RYAN, Wisconsin                 BERNARD SANDERS, Vermont 
JOHN T. DOOLITTLE, California            (Independent)
HELEN CHENOWETH, Idaho


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
           David A. Kass, Deputy Counsel and Parliamentarian
                      Carla J. Martin, Chief Clerk
                 Phil Schiliro, Minority Staff Director
                                 ------                                

   Subcommittee on Criminal Justice, Drug Policy, and Human Resources

                    JOHN L. MICA, Florida, Chairman
BOB BARR, Georgia                    PATSY T. MINK, Hawaii
BENJAMIN A. GILMAN, New York         EDOLPHUS TOWNS, New York
CHRISTOPHER SHAYS, Connecticut       ELIJAH E. CUMMINGS, Maryland
ILEANA ROS-LEHTINEN, Florida         DENNIS J. KUCINICH, Ohio
MARK E. SOUDER, Indiana              ROD R. BLAGOJEVICH, Illinois
STEVEN C. LaTOURETTE, Ohio           JOHN F. TIERNEY, Massachusetts
ASA HUTCHINSON, Arkansas             JIM TURNER, Texas
DOUG OSE, California

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
          Robert B. Charles, Staff Director and Chief Counsel
                          Glee Smith, Counsel
                          Amy Davenport, Clerk
                    Micheal Yeager, Minority Counsel
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 19, 1999...................................     1
Statement of:
    Cole, Cassie, parole office, Smyrna, GA; and Dan Bowles, 
      local business owner.......................................    59
    Fischer, Thomas P., District Director, U.S. Immigration and 
      Naturalization Service; Bart G. Szafnicki, Assistant 
      District Director for Investigations, U.S. Immigration and 
      Naturalization Service; John Andrejko, Special Agent in 
      Charge, U.S. Drug Enforcement Administration; and Rick 
      Deane, U.S. Attorney, northern district of Georgia.........     5
    Johnson, Mark, chief of police, Chamblee, GA; Captain Terry 
      Neal, city of Dalton Police Department, Dalton, GA; and 
      Bill Hutson, sheriff, Cobb County, GA......................    38
Letters, statements, et cetera, submitted for the record by:
    Deane, Rick, U.S. Attorney, northern district of Georgia, 
      prepared statement of......................................    21
    Fischer, Thomas P., District Director, U.S. Immigration and 
      Naturalization Service, prepared statement of..............     8
    Neal, Captain Terry, city of Dalton Police Department, 
      Dalton, GA, prepared statement of..........................    43
    Szafnicki, Bart G., Assistant District Director for 
      Investigations, U.S. Immigration and Naturalization 
      Service, prepared statement of.............................    13


 INS SUPPORT FOR LOCAL EFFORTS: ARE THERE SUFFICIENT FEDERAL RESOURCES?

                              ----------                              


                         MONDAY, APRIL 19, 1999

                  House of Representatives,
Subcommittee on Criminal Justice, Drug Policy, and 
                                   Human Resources,
                            Committee on Government Reform,
                                                        Smyrna, GA.
    The subcommittee met, pursuant to notice, at 1:07 p.m., in 
the City Council Chambers, Smyrna City Hall, 2800 King Street, 
Smyrna, GA, Hon. John Mica (chairman of the subcommittee) 
presiding.
    Present: Representatives Mica and Barr.
    Staff present: Amy Davenport, clerk; Glee Smith, counsel; 
and Michael Yeager, minority counsel.
    Mr. Mica. Good afternoon. I would like to call this meeting 
of the Criminal Justice, Drug Policy, and Human Resource 
Subcommittee to order. I am pleased we are holding this field 
hearing this afternoon in Smyrna, GA at the request of our vice 
chairman, Congressman Bob Barr, who represents part of this 
area. We are pleased to address the important topic at question 
today, and that is ``INS Support for Local Efforts: Are There 
Sufficient Federal Resources?''
    I will start with an opening statement and defer to Mr. 
Barr and any other statements Members of Congress will be 
submitting to the record.
    After that, we will hear all the panelists before we begin 
any questioning.
    Today, the Criminal Justice, Drug Policy, and Human 
Resources Subcommittee hearing will focus on the relationship 
of the Immigration and Naturalization Service [INS] and State 
and local governments. INS' resources have more than doubled 
during the years of the Clinton administration. Specifically, 
it is important today that we review in this hearing whether 
adequate resources have been targeted toward assisting State 
and local governments to meet our growing immigration 
challenges, or have we, in fact, used budget increases simply 
to be poured on the current organization and administration 
activities of INS. It is hoped that we can deal with an agency 
that has had serious difficulties in the past meeting its 
administrative and organizational functional responsibility and 
which still is often unable to fulfill its mission, and 
unfortunately maintains a poor performance record, even among 
the least responsive Federal agencies.
    Anyone who has tracked INS over the years knows that the 
agency has many institutional management problems that have led 
to very horrendous consequences. Back in 1995 and 1996, 
negligent management led to the naturalization of thousands of 
individuals who were not eligible for citizenship. In fact, 
thousands of ineligible criminals received clearance for 
citizenship while scores of eligible candidates were denied 
naturalization as their paperwork and fees were lost in the INS 
bureaucracy. As a result of this and other incidents over the 
last several years, this subcommittee, and also through the 
efforts of Representative Smith of Texas and Representative 
Rogers of Kentucky, respective chairs of the authorization and 
appropriation subcommittees in the House, has vigorously 
conducted oversight of INS management to ensure that the agency 
cleans up its act. This hearing is a continuation of that 
important oversight responsibility, which again, has been taken 
on by the authorizers and the appropriators.
    However, the purpose of this hearing is not to criticize 
INS, but rather to focus on what improvements can be made to 
the enforcement of our immigration laws through a partnership 
between all levels of government and the private sector. So 
today, we will hear from not only Federal agencies, but State 
and local authorities who deal with INS on a daily basis. We 
hope today to hear from INS and other Federal representatives 
about what INS is doing right in this part of Georgia, 
hopefully to provide us with an example at the Federal level. 
This hearing is also an opportunity to hear, as I said, from 
State and local representatives of law enforcement and 
business, who can describe their partnership and their 
successful activities with the agency and tell us how INS is 
working with them in their communities. This hearing will 
provide our witnesses with an opportunity to make helpful 
suggestions which I hope we can return to Washington to improve 
Federal policy.
    Hearings such as this one today in this local community are 
very important. Through them, we can learn a great deal and I 
am looking forward to hearing today's testimony and the 
testimony of our witnesses who so graciously appeared both 
voluntarily and those under subpoena.
    I want to thank first of all, to conclude my remarks, the 
distinguished gentleman from Georgia, Mr. Barr, who also serves 
as vice chair of this subcommittee, both for hosting our 
subcommittee, for his interest in this most important topic of 
how we make a Federal agency responsive with State, local and 
private sector efforts, and how we, in fact, improve the entire 
process of immigration and naturalization and enforcement, as 
required by our Federal statute.
    So I am pleased at this time now to yield to Mr. Barr, vice 
chairman of our subcommittee and recognize him for an opening 
statement.
    Mr. Barr. Thank you. And I would like to personally welcome 
you, Mr. Chairman, to our area here in Smyrna, GA, my hometown. 
I know you have already commented on the wonderful facilities 
here, which is the primary reason that we chose this venue for 
today's hearing. The facilities here, under the leadership of 
Max Bacon and the City Council of the last several years really 
are an example of our urban and suburban redevelopment that 
have received national recognition. We hope you will have a 
chance today to go across the street and see the new law 
enforcement facilities as well, with which our first panel of 
witnesses are certainly very familiar, given the fact that our 
local law enforcement under Police Chief Stanley Hook does an 
awful lot of work with INS and with other Federal agencies, so 
I know they are very proud, as I am, to have you here today.
    This hearing is the result not only of Chairman Mica's 
desire to have more field hearings and not simply limit our 
hearings on important legislative, appropriations and oversight 
matters to those we hold in Washington, but to hold hearings 
out in the different districts around the country so that we 
(1) can hear more local officials and U.S. officials who are in 
those communities, to hear directly from them how we can do a 
better job and the resources that they need to do a better job. 
It also enables the members of the committee to hear more 
directly and understand more directly the concerns of our local 
officials and our Federal officials working out in the 
different regions and districts around the country.
    This also reflects the view of the leadership in the 
Congress that more of these hearings, not just for the 
Government Reform Committee and its subcommittees, but also 
other committees of the Congress, should be holding more 
hearings in different districts around the country rather than 
simply limit ourselves to holding hearings in Washington.
    As the chairman indicated, the main thrust of these 
hearings today--and we have three panels of very distinguished 
witnesses--will be to learn first-hand what problems, if any--
and one can presume that there are always problems in whatever 
we do--are confronting our immigration effort in all of its 
applications, not just INS, but DEA and its work, and the U.S. 
Attorney's Office and its work, but also with regard to the 
relationship between our Federal law enforcement officials--and 
our local law enforcement officials. Immigration, of course, is 
a Federal matter; yet, it affects local law enforcement because 
of the problems of crime that inevitably, to one degree or 
another, are attendant to illegal immigration. Trying to foster 
a close working relationship between our Federal law 
enforcement agencies and our State agencies helps better 
protect our citizens in all aspects. So, that is something that 
we are very much concerned about here today.
    The focus of the hearing, as the chairman indicated, is not 
on the problems, although some discussion of the problems 
certainly is necessary to lay the groundwork for developing 
solutions. I share the chairman's concern that over the last 
several years, the funds that have been authorized and 
appropriated by Congress for the interior enforcement effort by 
INS have increased dramatically. Yet, what I am hearing--and I 
do not think I am alone in this, other Members are hearing 
also--that those significantly increased resources are not 
getting down to the district and the working level. Quite the 
contrary, what I hear is that not only are the districts, 
interior districts such as Atlanta, not receiving increases in 
funding as mandated by the Congress, reflective of the 
increased appropriations, but are being told to cut back in 
terms of all of the indices that one normally would use to 
gauge whether or not there are sufficient resources in the 
district offices, everything from overtime to travel to use of 
cell phones, moneys that are used in undercover operations and 
so forth. So this is of concern to us because Congress is 
trying to get the resources to our districts and through them 
to support the local law enforcement needs. Yet there seems to 
be somewhat of a gulf there and we want to hear from these 
witnesses today, to hear what, if any, the nature of those 
problems are. Again, not just to highlight a problem, but to 
lay the groundwork for them determining and us determining how 
we can do a better job of assisting, because the problems of 
illegal immigration and the enforcement of our immigration laws 
in the interior is a tremendous concern to all of us.
    So we appreciate the law enforcement officials before you 
right now, Mr. Chairman. I have had the honor of working as a 
U.S. Attorney with three of them; that is, with Mr. Fischer and 
Mr. Szafnicki of the INS. I had the honor of working with Mr. 
Deane while I served as U.S. Attorney and he now heads that 
office, the northern district of Georgia, with tremendous 
integrity and responsibility. I have known Mr. Andrejko since I 
was elected to the Congress, he heads up, as the Special Agent 
in Charge, the DEA operation out of Atlanta which covers a wide 
area in the southeastern United States.
    So I commend this panel to you and to our listening 
audience. We appreciate very much the media being here today to 
help us in our effort to educate the public as to improving our 
law enforcement effort in the area of immigration laws. 
Hopefully through this hearing today, through this initial 
panel focusing on the Federal effort, through panel No. 2 
focusing on local law enforcement and panel No. 3 focusing on 
some of the civilian side, the civil sector, we can really, Mr. 
Chairman, do a good job of helping you as the chairman and 
through you our full committee. Ultimately imparting that 
knowledge to the Appropriations Committee so that where 
adjustments need to be made, as I think they do when we look at 
the resources that have been appropriated, yet not available to 
the field, those adjustments can be made. When we see some of 
the recent policies coming out of Washington that relate to 
release from detention of aliens, that really I think in the 
view of our local officials and our district officials would 
pose a danger to the community, why those policies are in fact 
coming out of Washington and why, despite the fact that there 
are more aliens being deported, the number of those with 
criminal records is dropping dramatically?
    So these, Mr. Chairman, are some of the questions that I 
have that I know are on the minds of some of the witnesses 
today. And again, I appreciate you coming down to Georgia to 
hold this hearing and help all of us in our community do a 
better job of utilizing the law enforcement resources that we 
have to protect our citizens.
    Thank you, Mr. Chairman.
    Mr. Mica. I thank the gentleman from Georgia.
    At this time, I also wanted to recognize Mike Yeager. Mr. 
Yeager is representing the minority, the ranking member of our 
subcommittee is Mrs. Mink from Hawaii who was not able to be 
with us, but I recognize his participation. We cannot conduct 
oversight hearings or really any committee or subcommittee 
functions without concurrence of the minority, under the rules 
of the committee and the House, so we are pleased that he is 
joining us today.
    I will also leave the record open, without objection, for 5 
days after the hearing for additional comments or testimony for 
the record. Without objection so ordered.
    I would like to welcome our first panel today. Our first 
panel has been partially introduced by the gentleman from 
Georgia. We have with us Mr. Tom Fischer, District Director of 
the U.S. Immigration and Naturalization Service. We have Mr. 
Bart Szafnicki--you are most welcome, and you are the U.S. 
Immigration and Naturalization Service representative. And Mr. 
John Andrejko, Special Agent of DEA; and Mr. Rick Deane, the 
U.S. Attorney of the northern district of Georgia.
    Gentlemen, welcome to our panel. Now let me set a couple of 
the ground rules. First of all, we have authorizing committees 
in Congress and we have appropriating committees in Congress. 
We are somewhat unique in that we are an investigations and 
oversight subcommittee of Congress. Acting in that capacity, 
that is why we are here today. We will swear you in in just a 
moment.
    Additionally, I might tell you that we ask you to limit 
your oral comments, your verbal remarks to the subcommittee, to 
5 minutes. If you have lengthy statements or additional 
information that you would like to see included as part of the 
record, we will be glad to do that.
    So those are a little bit of our ground rules and then we 
will go through the whole panel with your opening remarks to 
the subcommittee, and we will proceed with questions 
thereafter.
    So our first order of business, gentlemen, is to stand and 
be sworn in. Stand and raise your right hands.
    [Witnesses sworn.]
    Mr. Mica. Let the record reflect that the witnesses 
answered in the affirmative, and again, I welcome you to our 
panel today and we will start with Mr. Tom Fischer, the 
District Director for the U.S. Immigration and Naturalization 
Service. Mr. Fischer, you are welcomed and recognized, sir.

   STATEMENTS OF THOMAS P. FISCHER, DISTRICT DIRECTOR, U.S. 
  IMMIGRATION AND NATURALIZATION SERVICE; BART G. SZAFNICKI, 
     ASSISTANT DISTRICT DIRECTOR FOR INVESTIGATIONS, U.S. 
IMMIGRATION AND NATURALIZATION SERVICE; JOHN ANDREJKO, SPECIAL 
AGENT IN CHARGE, U.S. DRUG ENFORCEMENT ADMINISTRATION; AND RICK 
       DEANE, U.S. ATTORNEY, NORTHERN DISTRICT OF GEORGIA

    Mr. Fischer. Good afternoon, Mr. Chairman and distinguished 
members of the subcommittee. Thank you for the opportunity to 
testify on this most important issue of INS' support for local 
efforts and whether those resources are sufficient.
    As the District Director for the U.S. Immigration and 
Naturalization Service in Atlanta, GA for over 10 years, I have 
witnessed a dramatic change in the enforcement mission of the 
Service. During the early period of my tenure, immigration 
enforcement was confined primarily to administrative arrests of 
illegal aliens and the occasional collateral investigation of 
immigration benefit adjudications. However, more recently, the 
enforcement mission has grown to include joint operations and 
task force assignments with other Federal, State and local law 
enforcement, as well as immigration-specific investigations 
against violators of immigration law. There are many 
explanations for this expansion of duties, including 
legislative changes, modern transportation to the United States 
from abroad, and a strong and vibrant economy, to name a few.
    Immigration studies have placed the number of estimated 
illegal aliens in the United States at over 5 million. While 
increases in the border patrol have deterred many seeking entry 
along the southwest border, these efforts alone cannot control 
this influx. It is estimated half of the resident illegal alien 
population entered the United States in some form of legal 
status, only to have later violated the terms of their 
admission. It is well known that the majority of those seeking 
entry into the United States usually gravitate to the interior 
of the United States, at which time it falls upon district 
enforcement personnel of INS or some local agency to deal with 
this problem.
    The Atlanta office has attempted to be proactive in its 
approach to this increasing problem. An example of this 
District's approach was an initiative that this office launched 
in the summer of 1995, called Operation South PAW. In a joint 
operation with the U.S. Border Patrol personnel on detail to 
Atlanta and Special Agents and Deportation Officers from the 
Atlanta District, over 4000 illegal workers were arrested in a 
30-day period from 45 different countries. It is believed to be 
the largest interior enforcement effort in the history of the 
INS. The income of the illegal workers exceeded $55 million in 
gross annual salaries that was redirected to legal workers. In 
addition, 20 criminal prosecutions were initiated and 10 
employers were administratively fined for immigration 
violations. This is just one of many efforts initiated by this 
office. We are fortunate in our enforcement efforts to be able 
to work with some of the finest and most professional law 
enforcement agencies at all levels within our four-State area 
of responsibility.
    Immediately following Operation South PAW, the INS office 
formed a joint partnership with the Dalton Police Department 
and began one of the first immigration task forces in the 
Nation. This joint effort has positively demonstrated that by 
working together on matters of mutual interest, INS and local 
agencies can work together with their respective jurisdictions, 
to the benefit of the local community. This community policing 
effort has led to a better understanding of the nature of 
immigration problems and the solving of such problems by both 
agencies in a reasonable and prudent manner. In addition to 
joint enforcement efforts, this task force works within the 
community educating employers and civic organizations on the 
requirements of immigration law. The task force works very hard 
at diminishing the fears of victimized illegal aliens from 
reporting crimes, by focusing its efforts toward the criminal 
activity associated with illegal immigration.
    The Atlanta District is responsible for all immigration 
enforcement in a four-State area, including Georgia, North and 
South Carolina and Alabama. As recently as 1992, the District 
had enforcement officers only in Atlanta, GA and Charlotte, NC. 
In 1992, a one-man office was opened in Birmingham, AL. The 
Illegal Immigration Reform and Immigration Responsibility Act 
of 1996 included a section to ensure an immigration enforcement 
presence was in every State and in 1997, INS assigned three 
special agents to the office at Charleston, SC. I am pleased to 
report that the recent fiscal year 1999 appropriation included 
a provision to increase the presence of INS special agents and 
deportation officers to certain States identified by Congress 
to work more closely with State and local law enforcement 
agencies. Three of the States identified; Georgia, North 
Carolina and South Carolina, which are within the Atlanta 
District, have been included in this appropriation, which is 
known as Quick Response Teams, or QRTs. The Atlanta District is 
scheduled to receive an additional 35 officers, including 19 
special agents, 2 supervisory special agents, 11 detention 
enforcement officers, 2 deportation officers and 1 supervisory 
deportation officer. The cities selected for these assignments 
include Atlanta, GA; Dalton, GA; Savannah, GA; Albany, GA; 
Charlotte, NC; Raleigh, NC; Winston, NC, and Greer, SC. This 
will bring the total number of INS enforcement personnel to 128 
officers.
    The Atlanta District is committed to working with State and 
local law enforcement agencies within its areas of 
responsibility and with the assistance of Congress and the 
administration, looks forward to implementation of the quick 
response teams through the States of Georgia, North Carolina 
and South Carolina.
    Thank you for your attention and I am pleased to be here 
and I look forward to answering any questions that you or 
Congressman Barr or others may have.
    Mr. Mica. Thank you. And as I said, we will defer 
questions. I would like to recognize Mr. Bart Szafnicki, who is 
with the U.S. Immigration and Naturalization Service also.
    [The prepared statement of Mr. Fischer follows:]
    [GRAPHIC] [TIFF OMITTED] T4043.001
    
    [GRAPHIC] [TIFF OMITTED] T4043.002
    
    Mr. Szafnicki. Good afternoon, Mr. Chairman, Congressman 
Barr, Mr. Yeager, ladies and gentlemen. Thank you for the 
opportunity to testify here also.
    Recently, there has been much rhetoric over the nature of 
INS' role in the enforcement of the immigration laws in the 
interior of the United States. There has been harsh criticism 
over the agency's proposal of a new interior enforcement 
strategy, shifting emphasis away from the illegal aliens at 
worksite locations. It has been suggested by some that this 
shift is a capitulation by the administration in enforcing 
immigration laws inside the United States.
    First, I will agree that no strategy should eliminate or 
diminish any enforcement effort within the United States. 
Worksite enforcement, like any other enforcement effort, should 
be an effective tool in the difficult task of removing and 
deterring illegal migration to the United States. However, the 
simple removal of large numbers of illegal aliens without a 
sound strategy and purpose is futile and a waste of taxpayer 
dollars. INS' mission has grown dramatically over the years. 
While some may see our mission as quite simply to locate and 
arrest illegal aliens, enforcement efforts must also address 
the cause of the illegal immigration.
    The interior enforcement strategy which complements INS 
border management efforts targets the agency's limited 
enforcement resources on removing criminals and other illegal 
aliens, disrupting smuggling rings, responding to community 
reports and complaints about illegal immigration, stopping 
immigration benefit and document fraud and enforcing 
immigration law among employers. Here are but a few of the 
activities of the Atlanta agents.
    The Atlanta District is currently investigating a major H1B 
visa fraud operation which is suspected of illegally bringing 
in large numbers of illegal aliens from India to ostensibly 
perform skilled labor in the computer industry. It is suspected 
that few, if any, of these aliens are qualified for entry into 
the United States and this operation is nothing more than a 
front for a more sophisticated alien smuggling ring. This ring 
brings in people, not in the dark of night across the borders 
or in unseaworthy ocean vessels, but right through our Nation's 
front doors by abusing and manipulating the visa system. It 
attacks the very heart and integrity of our legal, controlled 
immigration system. If left unchecked, it will break down the 
system we know today to lawfully control and admit foreign 
nationals into the United States.
    In February 1998, the Atlanta office began implementation 
of a pilot program known as the National Criminal Alien Removal 
Plan. This plan was implemented at three metro Atlanta county 
jails--Cobb, Gwinnett and DeKalb. From February 1998 through 
February 1999, over 1,035 foreign-born nationals from 75 
different countries have been identified and removed or 
detained pending removal from the United States due to serious 
criminal convictions. Many, if not most, of these individuals 
would have gone undetected were it not for this program.
    Here are just a few examples of the type of individuals 
encountered.
    Felix Ngana, a citizen of Kenya entered the United States 
as a foreign student in 1993 to attend Beulah Heights Bible 
College. He was encountered at the Cobb County Detention 
Facility, having been arrested for aggravated stalking, 
carrying a concealed weapon, burglary and obstructing an 
officer. He had been previously arrested and convicted in 1997 
for simple battery. He was subsequently convicted for the above 
offenses on January 4.
    Alfred Paez-Denada, an illegal alien from Mexico living in 
Lilburn, GA was arrested on the charge of public drunkenness. 
He was encountered at the DeKalb County Jail and a check with 
the National Crime Information Center revealed that Mr. Paez 
had 55 arrests in California and Arizona and 26 criminal 
convictions for such crimes as larceny, burglary, theft and 
shoplifting. He had been ordered deported from the United 
States on four previous occasions.
    In 1992, then Attorney General William Barr directed INS to 
dedicate a number of INS special agents to assist communities 
in combating ethnic violent gangs. The Atlanta office has 
dedicated 10 special agents to this effort. Agents are assigned 
to work with DEA, FBI and the High Intensity Drug Trafficking 
Area [HIDTA], as well as specified, identified communities with 
known or suspected gang activities. One such community is 
Gainesville, GA, where in addition to a number of illegal 
aliens working and residing, there are also no fewer than six 
gangs. The murder of a 14 year old boy by a known illegal alien 
gang member on June 1, 1998 led INS to an aggressive 
enforcement effort, along with the FBI and the Hall County 
Sheriff's Office, the Hall County District Attorney's Office as 
well as the office of the U.S. Attorney in the northern 
district of Georgia. Since this effort, there has been a 
diminished influence of these gangs in the Hall County area.
    In 1995, INS Atlanta undertook a unique concept in concert 
with the Dalton, GA Police Department and initiated the 
Nation's first truly joint immigration task force. The Dalton 
Immigration Task Force has approached the immigration problem 
as a community policing effort designed to educate employers 
and the public, as well as to enforce Federal and State laws 
specific to the problem of illegal immigration. To date, this 
task force has been responsible for the identification and 
removal of over 875 illegal aliens, 168 criminal aliens have 
been arrested on State or Federal felony charges. Six joint 
worksite enforcement operations and over 60 employer education 
seminars have been conducted.
    These are but a few examples of the nature and type of work 
being conducted by agents of the Atlanta District. The 
District's authorized investigative strength is 65 positions, a 
total of 48 special agents, 5 immigration enforcement agents, 
and 11 support personnel. The District is responsible for the 
enforcement of the Nation's immigration laws in the four States 
of North Carolina, South Carolina, Alabama and Georgia. This 
area represents 372 different counties and covers 188,000 
square miles. This area has well over 1,000 separate State and 
municipal law enforcement agencies plus other Federal law 
enforcement entities. Currently, the Atlanta office has four 
locations with enforcement personnel at Atlanta; Charlotte, NC; 
Charleston, SC, and Birmingham, AL. Birmingham, AL currently 
has only one special agent assigned to cover the entire State.
    INS alone has the statutory authority to arrest an 
individual for being illegally in this country. Quite simply, 
when it comes to the arrest of illegal aliens for immigration 
violations, INS is the only game in town. Unlike other Federal 
law enforcement agencies who often share jurisdiction with 
State and local law enforcement, INS, if it fails to respond, 
leaves many jurisdictions with few alternatives.
    INS' interior enforcement has been hit with increased 
requests from other Federal, State and local law enforcement to 
head up or participate in criminal enforcement efforts against 
foreign-born nationals. This fact, coupled with new laws, has 
required INS special agents to step up its efforts in the area 
of criminal enforcement and at the same time attempt to address 
its administrative responsibilities.
    While the Border Patrol has deservedly received an increase 
in its personnel and resources, INS' interior enforcement has 
witnessed little or no growth. From 1994 through 1998, INS' 
overall enforcement budget grew by about $1.3 billion and 7,493 
positions. Most of the increased enforcement funding was 
directed at the southwest border, where a buildup of an 
additional 4,000 Border Patrol personnel was intended to 
prevent illegal entry. During the same period, INS requested 
1,167 positions and $163.2 million for worksite enforcement 
initiatives. The Service received 525 positions and $56.4 
million for worksite enforcement initiatives. Border Patrol 
enforcement success has led directly to the evolution of more 
sophisticated alien smuggling organizations attempting to evade 
this increased presence. As pressure is exerted along the 
southwest border, criminal groups are devising new routes and 
methods to ply their trade in human cargo. In order to 
complement the Border Patrol strategy, interior enforcement 
must be prepared to respond to these criminal smuggling 
organizations while simultaneously managing its other 
responsibilities.
    In an attempt to meet these demands, INS has developed an 
interior enforcement strategy designed to focus its finite 
resources at the underpinnings of illegal immigration. These 
efforts should diminish the ability of illegal aliens to gain a 
foothold in the United States and lessen the impact on local 
law enforcement throughout the country.
    I too thank you for your time and I would be happy to 
answer questions at the conclusion of this panel.
    Mr. Mica. Thank you. We will defer questions, as I said. I 
would like to recognize the presence of the Congressman, U.S. 
Representative from this area, Johnny Isakson, who has joined 
us and also invite him to come up and join the panel. We would 
love to have you on this side.
    Mr. Isakson. No, with you two stars, I think I am going to 
stay back here. Thank you though, Mr. Chairman. [Laughter.]
    Mr. Mica. Thank you, sir.
    Now I would like to recognize Mr. John Andrejko, who is a 
Special Agent of the Drug Enforcement Administration.
    [The prepared statement of Mr. Szafnicki follows:]
    [GRAPHIC] [TIFF OMITTED] T4043.003
    
    [GRAPHIC] [TIFF OMITTED] T4043.004
    
    [GRAPHIC] [TIFF OMITTED] T4043.005
    
    [GRAPHIC] [TIFF OMITTED] T4043.006
    
    [GRAPHIC] [TIFF OMITTED] T4043.007
    
    Mr. Andrejko. Good afternoon, Mr. Chairman and 
distinguished members of the subcommittee. I am honored to 
appear before you today to provide oral comments regarding INS' 
support for local efforts and resource needs.
    I am the Special Agent in Charge of DEA's Atlanta Field 
Division, which consists of the States of Georgia, Tennessee, 
North Carolina and South Carolina. Within these four States, 
DEA maintains 20 field offices staffed by 166 DEA special 
agents and 160 State and local task force officers from 
surrounding communities.
    During the past several years, the Atlanta Field Division 
has experienced an increase in methamphetamine trafficking and 
abuse and methamphetamine is increasingly being seen in areas 
that previously had not been exposed to this most powerful 
stimulant. Historically, the suppliers of methamphetamine 
throughout the United States have been outlaw motorcycle gangs 
and numerous other independent trafficking groups. Although 
these groups continue to produce and distribute 
methamphetamine, organized crime, poly-drug trafficking groups 
operating from Mexico, California and Texas now dominate 
wholesale methamphetamine trafficking in the United States. 
These trafficking groups are increasingly moving this product 
eastward to markets in the Atlanta Field Division and DEA finds 
itself increasingly investigating Mexico-based trafficking 
organizations.
    DEA has formed partnerships and implemented task force 
operations with many of the Federal, State and local law 
enforcement agencies in this division to develop enforcement 
strategies directed at these trafficking groups. The INS has 
participated in many of these planning sessions and has offered 
to provide manpower to these task force groups. Unfortunately, 
because of their many responsibilities and limited enforcement 
agent personnel, they have not been able to assign INS agents 
to all of the initiatives in the offices throughout the Atlanta 
Division.
    DEA welcomes the expertise, investigative skills and 
cooperative efforts which INS has contributed over the years 
and the INS plays an integral role in today's drug enforcement 
mission. So often, many of the methamphetamine traffickers who 
are arrested in this division are illegal aliens or foreign 
nationals with ties to Mexico-based organizations. To assist us 
in our investigations, INS has assigned one agent full time to 
one of the DEA task force groups in Atlanta and we sincerely 
appreciate all the outstanding assistance this agent provides. 
DEA offices in Charlotte, NC, and Charleston, SC, also have 
received tremendous help by INS enforcement personnel assigned 
to those areas.
    INS enjoys an excellent reputation within the law 
enforcement community and its agents are recognized for their 
dedication, hard work and cooperative spirit they bring to 
their assignments. What INS needs in this area in my view is 
additional manpower and resources in the area of criminal 
enforcement to be able to increase its commitment to work with 
Federal, State and local law enforcement agencies.
    This concludes my comments and I would be more than happy 
to answer any questions you may have.
    Mr. Mica. Thank you and we will now recognize Mr. Rick 
Deane who is the U.S. Attorney in the northern district of 
Georgia. You are recognized, sir.
    Mr. Deane. Thank you, Mr. Chairman and distinguished 
members of the subcommittee. I should preface my comments by 
saying particularly to Mr. Barr that my comments, as I noticed 
as I was handing them out earlier, do not bear an attribution 
line and that is of course due to the fact that my secretary 
and your former secretary is not presently in the office--an 
oversight that never would have happened had she been there. 
[Laughter.]
    But she sends her regards and she is recovering quite well.
    Mr. Barr. Thank you, Rick.
    Mr. Deane. Within the northern district of Georgia, Mr. 
Chairman, we have launched strategies to reduce crime involving 
illegal aliens and methamphetamine trafficking, as was just 
mentioned. We are presently employing those strategies in 
Gainesville, Cartersville, Dalton, Rome and Calhoun. The 
strategies focus upon shared intelligence and collaborative law 
enforcement involving Federal, State and local law enforcement. 
These collaborative efforts have provided us with intelligence 
that methamphetamine trafficking is expanding in north Georgia. 
Although not officially a task force, each participant in the 
strategies functions as a task force member. One important 
result of the collaboration is to provide, or rather to avoid, 
duplication of effort or wasted effort when one agency has part 
of the puzzle and another some other part. INS is critically 
important to these strategies.
    For example, if an alien is arrested by local authorities, 
INS is generally immediately notified. INS immediately begins 
to investigate the alien's background. Should the alien be an 
illegal alien who has been previously deported, INS may notify 
our office because the alien may be prosecuted for illegally 
re-entering the United States after having been deported. 
Deportation alone has already been proven unsuccessful since 
the alien has returned at least once, and often more than once.
    Of course, not every illegal alien who has re-entered the 
United States faces a realistic threat of Federal prosecution. 
The number of illegal re-entry cases prosecuted by our office 
has doubled in the last 4 years, although our prosecutive 
guidelines have tightened. In 1995, this office prosecuted 75 
defendants for illegally re-entering the country, essentially 
prosecuting all referred defendants being found in the country 
after being previously arrested and deported. Because of 1996 
changes in the law, in 1997, we began to prosecute only those 
defendants previously convicted of an aggravated felony in this 
country prior to being deported. Our 1997 numbers still rose to 
103 prosecutions. In 1998, we prosecuted 164 defendants on 
immigration charges and the number continues to rise. These 
cases arise from charges that the alien has committed such 
offenses as aggravated assault, robbery, child molestation and 
other aggravated felonies.
    Currently, INS typically refers to us for prosecution 
defendants with criminal history levels of three or better 
under the Federal sentencing guidelines, the defendants having 
prior convictions for drug trafficking or for other violent 
felonies. Under these circumstances, the typical defendant 
faces a Federal guideline range of roughly 71 to 87 months. 
Thus, the INS participation is critical in removing aggravated 
felons and preventing their re-entry into the United States 
after deportation and being once again arrested.
    INS, as a collaborative partner, also contributes in an 
equally important way by sharing intelligence and by assisting 
in investigations, even if the investigation results in a 
Federal charge not involving immigration, or a State charge. 
Not infrequently, illegal aliens who are arrested will possess 
false immigration documents for use by themselves and by 
others. In such cases, the alien may be charged with violations 
of State forgery statutes. INS involvement is very important to 
support these State prosecutions.
    INS and its investigative resources play an important role 
in maintaining public safety throughout the northern district 
of Georgia.
    I thank you for this opportunity to speak here.
    [The prepared statement of Mr. Deane follows:]
    [GRAPHIC] [TIFF OMITTED] T4043.008
    
    [GRAPHIC] [TIFF OMITTED] T4043.009
    
    [GRAPHIC] [TIFF OMITTED] T4043.010
    
    [GRAPHIC] [TIFF OMITTED] T4043.011
    
    Mr. Mica. I thank our panelists for their testimony and I 
would like to start the questioning of our panel, if I may, and 
our witnesses.
    First of all, Mr. Fischer, how long have you been the 
District Director of INS?
    Mr. Fischer. Since January 1988, Mr. Chairman, a little 
over 11 years.
    Mr. Mica. My recollection is--I came to Congress in 1993--
from 1993 to 1998, Congress has more than doubled the INS 
budget, from $1.5 to $3.8 billion. During these years, INS 
staffing has increased from just over 18,000 to nearly 29,000 
permanent positions. If you recall, back in 1993 or 1994, how 
many personnel did you have in your District?
    Mr. Fischer. If I may answer it this way, when I came to 
Atlanta in 1988, I had approximately 280 employees for the four 
States, and this was in the entire INS realm of activity--
investigations, detention, deportation, examinations, 
inspections.
    Mr. Mica. What was the number?
    Mr. Fischer. Approximately 280. I had that same number, Mr. 
Chairman, approximately 9 months to a year ago, only most 
recently have I received resources that took me over my initial 
1988 level.
    Mr. Mica. So until about 8 months ago, you still had in the 
280 to 300 range?
    Mr. Fischer. Yes, sir.
    Mr. Mica. Where has all the money and the staff been going, 
to your knowledge? Why has this area not been the recipient of 
the largesse of more than doubling the budget, $1.5--I am only 
talking from 1993 to 1998--$1.3 to $3.8 billion. You have gone 
from 18,000 employees to 29,000 permanent positions, and you 
still do not have the personnel.
    I think in your testimony, did you not tell me they are 
still on the way? One of you all testified.
    Mr. Fischer. The QRTs, the Quick Response Teams, those are 
now currently being announced.
    Mr. Mica. What is your FTE equivalent full time positions 
now?
    Mr. Fischer. Approximately 300.
    Mr. Mica. 300? Right now?
    Mr. Fischer. Yes, sir, for the entire district.
    Mr. Mica. So you still do not have the resources at the 
local level and we have doubled the expenditures and almost 
doubled the personnel. Amazing.
    Now I heard the figure of 1,035 removed, this was illegals. 
Was that you, Mr. Szafnicki, who gave us those figures?
    Mr. Szafnicki. Yes, sir, it was----
    Mr. Mica. From February 1998 to February 1999, 1,035.
    Mr. Szafnicki. That was just for the National Criminal 
Alien Removal Program, the county jail program that we 
initiated. That was not our total number of removals.
    Mr. Mica. And how does that compare to say, 1997 to 1998?
    Mr. Szafnicki. Well, again, that figure that I was 
referring to was a program that was only instituted in February 
1998, it does not bear----
    Mr. Mica. So we would not have any----
    Mr. Szafnicki. I have nothing to draw upon for previous 
years.
    Mr. Mica. No figures from prior to that.
    Were there any other personnel from INS that you used to 
achieve that number of removals?
    Mr. Szafnicki. No, I just simply used my investigative 
resource staff that I had available to me. Now, I was given a 
few additional positions as immigration enforcement agents to 
help me initiate that pilot program, but with the few resources 
that we did receive, we were able to accomplish well over 1,000 
individuals that were processed for removal. They have either 
been removed or detained for removal.
    Mr. Mica. Now do you attribute part of the ability, with 
limited resources, limited dollars and limited personnel, to 
achieving those numbers of removals by cooperative efforts from 
other agencies? And if so, can you tell me how you were able to 
do this?
    Mr. Szafnicki. Absolutely. We entered into a collaborative 
agreement with Cobb County, Gwinnett County and DeKalb County 
to basically process individuals that are encountered at their 
institutions through the intake system. Those individuals that 
are encountered that are illegal aliens with substantial 
criminal histories are immediately identified, processed for 
removal and set up for deportation hearings, and we try to 
expedite them through their system to get them into our system 
basically.
    Mr. Mica. Mr. Fischer, you talked about personnel, how 
about hard dollars? You said that you had basically the same 
number of personnel, 1988, 1993 and last year. Has your budget 
doubled at this district level in that period?
    Mr. Fischer. No, sir, it has not.
    Mr. Mica. What kind of increases have we seen?
    Mr. Fischer. We have had increases in our inspections 
program, we have had decreases in our investigations program. 
Our current budget for this fiscal year for operating, that Mr. 
Szafnicki and his investigative staff has to utilize, as 
Congressman Barr gave examples--undercover operations, vehicle 
maintenance, travel, things of that nature--we are down 50 
percent from last year.
    Mr. Mica. For what?
    Mr. Fischer. For investigations.
    Mr. Mica. Was it Operation South PAW--did I catch that 
right?
    Mr. Fischer. Yes, sir.
    Mr. Mica. Is that purely an INS effort or was that with 
local and State also?
    Mr. Fischer. It was primarily an INS effort and we utilized 
cooperative agreements with the State and local where 
appropriate. For example, the use of National Guard armories 
for processing areas. We coordinated with the locals for 
traffic control and security so that people would not be 
injured when we did an onsite survey of the work force. But it 
was primarily an INS operation.
    Mr. Mica. And let me ask a question as far as the problems 
relating to the--we passed legislation in 1996 and I think we 
passed some other legislation giving different mandates to INS 
as far as enforcement, deportation, et cetera, which I would 
imagine has increased your workload. I think these figures 
reflect that you have also handled a significant number of 
additional cases.
    Mr. Fischer. Yes, sir.
    Mr. Mica. If you were in our position to change Federal law 
or Federal policy, is there something we should be changing? Is 
the law--are the laws that we passed requiring this expedited 
additional enforcement emphasis, is it working well? What 
changes would you recommend?
    Mr. Fischer. I feel the law is very appropriate, it appears 
to be very responsive to the community, the feedback that I get 
from, whether it be residents or elected officials or law 
enforcement officials. One of the difficulties that we have--
for example, the mandatory incarceration of criminal aliens, 
one of the problems that we have at times is the sufficient 
funding to ensure that this criminal alien is not released from 
incarceration until the entire process is accomplished, which 
should amount to removal from this country. And as Mr. 
Szafnicki testified to, we are getting very, very large numbers 
of people. I suspect in the State of Georgia, there are over 
100,000 illegal workers right now, and that may be a 
conservative estimate. And many of these individuals will come 
into the local judicial system in some form or fashion. And the 
law is responsive, we have difficulty though sometimes ensuring 
that we can complete the entire mission; by that, the removal, 
the hearing, the incarceration costs. And that's because of 
budget and personnel problems.
    Mr. Mica. Well, part of the reason for this hearing is to 
figure out where the dollars have gone. Obviously, they have 
not gone to the district level. We have increased your 
workload, increased your areas of responsibility and it also 
sounds like the detention problem, because of the sheer 
numbers, and then the process that you must go through, 
requires some staying power. How are you coping with that and 
is that becoming a serious problem or reaching a crisis level?
    Mr. Fischer. Well, it does reach a crisis at times with the 
human factor, the overtime, the stress and strain on the 
vehicles, the contracting we have to do with local officials 
for jail space where we have to go out and bid on it.
    Mr. Mica. So that is where you were incarcerating these 
folks until the process is complete.
    Mr. Fischer. Yes, sir. There is no INS detention facility 
in the Atlanta District. We will either remove individuals to 
INS facilities in other parts of the United States through the 
Justice, JPAC system or we will contract with local enforcement 
entities, sheriffs, whatever, and house our prisoners there 
until a hearing can be performed before an Immigration judge.
    Mr. Mica. Is your budget adequate to sustain the level of 
your experience?
    Mr. Fischer. Not all the times, sir. Sometimes, we have to 
ensure that our input matches our budget.
    Mr. Mica. Are any of these folks being released?
    Mr. Fischer. No, sir, not in my District.
    Mr. Mica. So you are getting by with the cooperation of 
these local folks?
    Mr. Fischer. Yes, they are doing a very good job for us.
    Mr. Mica. Let me, if I may, have a couple of concluding 
questions to other panelists. The U.S. Attorney, Mr. Deane, you 
had talked a bit about repeat offenders and the problem of 
repeat offenders. You say that has doubled in the last, was it 
year or two? Could you tell us the situation dealing with those 
individuals who have been deported and then they are back again 
on the scene?
    Mr. Deane. What I said, Congressman, was that the number of 
prosecutions; that is, cases that we have actually prosecuted, 
I believe over the last 4 years has doubled.
    Mr. Mica. OK. What about repeat offenders, these folks that 
we are deporting and seeing back, is that becoming a problem or 
is it pretty much the same as it has been?
    Mr. Deane. No, I think it is certainly becoming a problem. 
The concern for us is figuring out which of the various 
potential defendants that are out there will we prosecute, the 
same as it is a problem for Mr. Szafnicki, on the front end of 
trying to figure out which ones should be referred.
    If you merely re-enter the country after having been 
deported, our focus is on the aggravated underlying felony that 
got you deported initially.
    Mr. Mica. And you testified that since the 1996 law, that 
your emphasis is prosecution only of aggravated felons--those 
with aggravated felony charges.
    Mr. Deane. Yes, sir.
    Mr. Mica. That is correct?
    Mr. Deane. Yes, sir, that is correct.
    Mr. Mica. So what are you doing about the rest of them?
    Mr. Deane. Well, quite a number of the rest of them never 
get referred to us because we have worked out with the 
Immigration Service on the front end those cases that they 
should focus on that we can then progress through the system. 
So they know on the front end the kinds of defendants that we 
are looking for that we can get out. We are looking for the 
worst of the worst.
    Mr. Mica. And the others, are they falling through the 
cracks?
    Mr. Deane. Well, they are falling through the cracks in the 
sense that they do not come into the criminal justice system, 
but they are nonetheless being deported and detained.
    Mr. Mica. Let me ask you a question. We had a congressional 
delegation which I chaired, which we took to Central and South 
America. Of course, when we got to El Salvador, the President 
of El Salvador hit us with a barrage--we had deported an 
incredible number of folks to El Salvador. Do you notify the 
local El Salvadoran authorities when they are deported?
    Mr. Deane. Yes, sir, we do.
    Mr. Mica. The country police are notified?
    Mr. Deane. Yes, sir, they are. And as a matter of fact, we 
have a very regular meeting of all the law enforcement 
executives here and that was just something we have discussed 
over the last----
    Mr. Mica. They were also telling us that it is sort of a 
revolving door, because they are there, they have learned 
criminal techniques in our detention facilities from others, or 
in prison and they are turning around and going back.
    Mr. Deane. Right.
    Mr. Mica. So we do not have a way to stop the revolving 
door and have almost an open border, a commercial border anyway 
on the southwest.
    Anything we need to do to revise this 1996 law to give you 
better direction or should we make it more inclusive, 
exclusive? Any recommendations on changing the Federal statute 
what we have done?
    Mr. Deane. The 1996 law actually served to expand the 
definition of those persons that we could end up prosecuting.
    Mr. Mica. Right.
    Mr. Deane. And so our situation is that we have got the 
statute in place. Our problem is much like----
    Mr. Mica. The resources to carry out the job.
    Mr. Deane. That is exactly right.
    Mr. Mica. How is your budget doing?
    Mr. Deane. Our budget is not adequate to do all that we 
would like to do, I will leave it at that. But we are 
absolutely going to focus--we were in meetings this morning 
talking about the things that we can cut back on in order to 
better accommodate the INS cases, because some of these cases 
involve people who are just an absolute danger to the 
community, so we have to prosecute them. And we will make 
whatever adjustments we need to, to try to prosecute them.
    Mr. Mica. From your standpoint, is there anything we can do 
to expedite to provide quick passage out of the country--
quicker passage out of the country for these folks?
    Mr. Deane. Well, Congressman, for the ones that come to us, 
we are not interested in providing them with quick passage, we 
are interested in assuring them of some extended time in 
Federal custody, in prison, because those are the persons that 
are a danger. We simply cannot deport them, these are people 
who should be serving a jail term, an extensive jail term.
    Mr. Mica. Well, is there--again, I am looking for any 
recommendations that would expedite the process so we get rid 
of those who have to be deported, who may have some minor 
offenses, so we incarcerate those who are the baddies, and they 
are taken care of. I understand we now have 27 percent of 
113,000 Federal prisoners that are illegal aliens; is that 
correct?
    Mr. Szafnicki. Foreign nationals, not necessarily illegal, 
could be legal permanent residents also.
    Mr. Mica. And that is growing?
    Mr. Szafnicki. I believe it is.
    Mr. Mica. Well, thank you, and if you have additional 
comments or think of things you would like submitted either 
formally or informally for the panel, as we look at the law, 
look at how we are spending these limited dollars, but 
increasing dollars on this extensive effort, I would welcome 
them.
    I am pleased now to yield to the vice chairman of the 
subcommittee, the gentleman from Georgia.
    Mr. Barr. Thank you, Mr. Chairman.
    Are all four of you gentlemen familiar with the Immigration 
and Naturalization Service Interior Enforcement Strategy issued 
in January 1999?
    Mr. Fischer. Yes.
    Mr. Szafnicki. Yes.
    Mr. Deane. Yes.
    Mr. Barr. OK. Mr. Andrejko, are you familiar with that?
    Mr. Andrejko. Slightly familiar, yes.
    Mr. Barr. What is--in terms--let me start with you, Mr. 
Fischer, in terms of your ability to carry out your mission, 
you described it fairly well, I think, how does this Interior 
Enforcement Strategy affect that? Will this improve your 
ability to carry out your mission or do you see some problems 
with it?
    Mr. Fischer. The strategy right now is being formalized in 
our Washington headquarters office, selected colleagues of mine 
have been pulled into Washington to expand upon the strategy 
that you identified, Congressman, and it is my belief that then 
operating instructions will be presented to myself and my other 
colleagues throughout the country on how to implement this.
    Mr. Barr. I think that is sort of a nice way of saying that 
there are some problems with the strategy as it was issued in 
January of this year, in terms of your ability to meet your 
mission. Would you disagree with that assessment?
    Mr. Fischer. No, sir.
    Mr. Barr. One thing that I did notice, and I know this has 
also been the subject of newspaper articles that have been 
written in the Washington Post recently, for example, is in 
terms of worksite enforcement. I know that both you and Mr. 
Szafnicki and certainly the U.S. Attorney are very familiar 
with what I have considered to be very, very successful 
projects over the last several years, including Operation South 
PAW, yet that part of the overall interior enforcement effort 
seems to be, shall we say, downplayed in this interior 
enforcement strategy. Would that be accurate, Mr. Szafnicki?
    Mr. Szafnicki. I do not know if--it certainly gives the 
appearance of being downplayed, Congressman. I think it is a 
different approach and perhaps it could have been explained 
better in the interior enforcement strategy. It is my 
understanding that the emphasis will be placed toward who is 
supplying those illegal aliens to specific worksite locations. 
And by focusing on the suppliers, hopefully as we are able to 
prosecute through the assistance of the U.S. Attorney's Office, 
the actual people responsible for bringing them into the United 
States, there will be a diminished number of individuals 
actually coming to a specific area. It certainly does not 
intend--it is my understanding anyway--to eliminate worksite 
enforcement, it is just simply the idea of going to a specific 
worksite location for the express purpose of doing nothing more 
than picking up the illegals and removing them is not 
efficient.
    Mr. Barr. There is though, I presume, some benefit to 
engaging in projects such as Operation South PAW, is there not, 
to draw attention in the public arena to the need for interior 
enforcement and highlighting the fact, for example, that those 
jobs that are performed by those who are in this country 
illegally are being performed by illegal aliens and that there 
are repercussions for employers who do in fact knowingly 
provide such jobs to illegal aliens--is there some benefit to 
that?
    Mr. Szafnicki. Absolutely. As a matter of fact, a lot of 
our worksite initiatives, the actual criminal investigations we 
were able to uncover during South PAW were as a result of just 
going to the location and picking up large numbers of illegals. 
I am just saying that I think we need to couple that with some 
of the main focus of our efforts toward the smugglers in 
looking toward something beyond just picking up the illegals 
and removing them, go one step further to identify, if we do go 
to a location and pick up a large group of illegals, how did 
they get there, who was responsible for providing them if they 
have fraudulent identification. We need to look beyond that and 
I think that is what they are trying to do, to a certain extent 
in this strategy.
    Mr. Barr. OK, and hopefully in the rewrite of it or the 
supporting documents that come out, that will be made a little 
bit clearer than it was in that document issued in January.
    Mr. Szafnicki. Correct, yes.
    Mr. Barr. With regard to some of the budgetary problems and 
detention matters that we have already touched on briefly, if 
you could please, Mr. Fischer, explain briefly the mandatory 
incarceration provisions contained in the 1996 act and the 
point system that is used to determine when somebody is 
detained and whether they are in fact continued to be detained 
or released.
    Mr. Fischer. The law is quite clear where someone who 
qualifies or meets the standard under our definition of a 
criminal alien, has to be incarcerated. Then of course we will 
go through the normal procedures of a hearing and eventually a 
final order of deportation or removal and then removal from 
this country.
    There was a suggestion earlier by our headquarters office 
on consideration of release of those criminal aliens.
    Mr. Barr. There was a memo dated February 1 of this year?
    Mr. Fischer. Yes, sir, and it had a suggested point process 
where if a person had a conviction of I believe sexual 
pandering and larceny, perhaps that was 2 points. And if the 
person did not get over 5 points, that the District Director 
should consider removing that--releasing that person into 
society. All the directors nationwide were not comfortable with 
that at all, for a variety of reasons.
    Mr. Barr. As a matter of fact, you went on record, I think 
very appropriately and professionally, very strongly objecting 
to that, is that correct?
    Mr. Fischer. Yes, sir, I did. And that has been rescinded, 
for lack of a better term, where now we are following the 
letter of the law from our headquarters office down to the 
direction that the directors are getting.
    Mr. Barr. With regard to budgetary matters, I remain very 
concerned, as the chairman has indicated also, with regard to 
particularly the fiscal year 1999 budget, you know, we are 
smack dab in the middle of that right now. What exactly is the 
nature of the budget cuts that you have been ordered to put 
into effect? Can you give us some notion of those and how they 
are affecting your operation?
    Mr. Fischer. When the budget was presented to me, and I 
will discuss the investigations budget and Mr. Szafnicki 
obviously can amplify on it if he feels appropriate, our budget 
in investigations was reduced by approximately 81 cents on the 
dollar for fiscal year 1999. And after myself and Mr. Szafnicki 
then prepared some talking points and some justifications that 
we felt was necessary for us to meet our requirements, whether 
it be the 1996 law or whether it be just our commitment as 
immigration officers to the people who we work with, it was I 
believe elevated up to 43 cents on the dollar. So we are taking 
a 57 cent hit or percent hit, however you want to look at it, 
which does affect our ability to support Mr. Andrejko, the 
local and State agencies where appropriate. And that is one of 
my concerns, sir, with these quick response teams. We are very, 
very grateful that Congress provided us those positions and we 
think we are going to get a lot of mileage that is going to 
really help our enforcement effort, but I am concerned about 
the moneys that maybe go with it or do not go with it. And if 
they do not go with it and numbers of a good sound professional 
operational posture, we could have positions there, but we may 
not be able to get the biggest bang for our buck and that is 
what concerns me.
    Mr. Barr. Are other district directors being directed to 
sustain similar cuts for the fiscal year 1999 budget?
    Mr. Fischer. I really do not know about the other district 
directors.
    Mr. Barr. Mr. Szafnicki.
    Mr. Szafnicki. On the investigations program, it has been 
universal across the board--across the country, the cuts. Now I 
cannot say they are all at 43 cents on the dollar, but they 
have all been sizable cuts.
    Mr. Barr. When these cuts were mandated earlier this year, 
what was the explanation given for them?
    Mr. Szafnicki. I did not receive one, Congressman.
    Mr. Barr. Could you give us maybe a couple of specifics in 
the way that this sort of budget cut will impact your ability 
to support Mr. Andrejko or other programs with which the U.S. 
Attorney is involved, or our local law enforcement, and we will 
be hearing from them later as well?
    Mr. Fischer. Well, a good example is the Rome, GA office, 
DEA opened up a Rome, GA office; the U.S. Attorney, Mr. Deane, 
is supportive of that office and that initiative. We would like 
to participate as a full partner, we just do not have the 
resources to participate as a full partner and in turn, that 
affects our ability to provide, as Mr. Andrejko said during his 
statement, assistance, whether it be language skills, whether 
it be cultural skills, whether it be the quick use of the INS 
systems to provide them data, and it could affect perhaps the 
prosecution in a case that Mr. Deane's office may eventually 
have. That is an example I can think of.
    Mr. Szafnicki. What I am facing with, basically a 57 cents 
on the dollar cut, we have one of the largest geographic areas 
in the United States to cover as a district office, it is very 
difficult for me to keep my vehicles on the road. Obviously, 
our ability to respond to State and local, since we have so few 
offices within our jurisdiction means we have to jump in a car 
and drive there and if that is a 4-hour drive, so be it. But 
the restrictions hamper us greatly because of gas costs, 
vehicle maintenance costs, things like that. I have got to take 
that into consideration when I make a decision to respond.
    Mr. Barr. Do either of you convey to those folks up in 
Washington from whom these directives are coming the concern, 
for example, or at least the obvious fact that even though 
moneys are being appropriated in significantly increased 
amounts specifically for interior enforcement, that you are 
being asked to sustain very, very deep cuts in your budget? 
Have you posed those questions to your superiors in Washington? 
And if so, what is their response?
    Mr. Fischer. We have, this has been done during quarterly 
district director and chief patrol agent meetings with the 
Executive Associate Commissioner for Field Operations, as well 
as the Commissioner of INS. And they note that we gave them 
that feedback.
    Mr. Barr. And that is it. Duly noted for the record, as 
they say.
    Mr. Fischer. Yes, sir.
    Mr. Barr. Well, we will certainly see if we can help.
    Mr. Andrejko and Mr. Deane, if you could comment on how the 
budget cuts that the interior enforcement effort, through DEA, 
might be affecting your operations and your ability to work 
cases involving illegal aliens.
    Mr. Andrejko. With regard to DEA, we are seeing more and 
more illegal aliens or foreign nationals involved in certain 
aspects of the drug trade that are affecting the Atlanta Field 
Division and when we noted that earlier, we had approached INS 
to see if we can get from them additional manpower and support 
with regard to their agent personnel assisting our enforcement 
groups, mainly our task force groups, to widen and expand the 
investigations and to delve deeply a little bit more into some 
of the information we have uncovered. And because of the lack 
of enforcement agent personnel on their part, they were not 
always able to go ahead and respond to our requests, not able 
to provide the assistance that we need in many of the 
strategies that have been designed throughout the Field 
Division, and that has certainly hampered the investigations by 
not bringing forth a review and a follow-through on those 
investigations, which would be possible had they had additional 
manpower to assign to us.
    Mr. Barr. Is one area in particular that you are seeing a 
particular problem methamphetamine trafficking in this area?
    Mr. Andrejko. Yes, we are very concerned. If you look at 
the statistics, for example, in fiscal year 1998, we seized 
approximately 668 pounds of methamphetamine either in 
metropolitan Atlanta or on its way to metropolitan Atlanta. And 
that is about a four time increase of the methamphetamine that 
was seized in the prior year. And a tremendous number of other 
investigations that we are proceeding on now also indicate that 
the methamphetamine trafficking is increasing throughout the 
division. I am receiving telephone calls from police chiefs and 
sheriffs in areas, in rural areas, that never called me 
requiring some additional help and assistance with regard to 
methamphetamine, which is indicative of the fact that the 
methamphetamine trade is expanding to those areas to the point 
of alarm on their level as well.
    Mr. Barr. One of the things that I hear consistently from 
local law enforcement officials as well as county commissioners 
and city council people is two things--one, tremendous regard 
for the work that DEA does and tremendous gratitude for the 
support that DEA does provide for local law enforcement; but 
the same frustration that I think you just indicated, that with 
regard to those who are involved in trafficking involving 
illegal aliens and organizations in support thereof, 
particularly with regard to methamphetamine, a frustration that 
the support simply is not there. And I think it goes back to 
some of the problems we have highlighted here with lack of 
proper funding coming from Washington to the district INS.
    Mr. Andrejko. That is true and I thank you for those kind 
comments with regard to how DEA is perceived. But I know with 
all the requests we have gone to Mr. Fischer and Mr. Szafnicki 
with, the help that they have provided to us has been very, 
very important to us in following through many of the leads 
that we had developed. And it has really been an asset to us in 
the investigations that are ongoing even at this time.
    Mr. Barr. Thank you.
    Mr. Deane, if you could comment. You have overall 
responsibility for prosecutions in this area and familiar with 
all the different agencies involved, could you indicate to us 
briefly how your responsibility has been impacted negatively 
perhaps by not being able to prosecute some of these cases 
because of the INS cutbacks in the interior enforcement budget?
    Mr. Deane. Well, Congressman, as you would know, any time 
you institute a prosecution, you try as best you can to make 
the most of what you are going to--the most of the case that 
you actually do have. You try to build that case and expand 
that case and to move up from a single stop perhaps on the 
expressway or someplace, move that up in the investigative 
chain. And in order to do that, you need to have people who are 
willing and who are capable of going out and doing the followup 
work. And that to me is where INS is most critical and most 
important, because they have intelligence bases and data bases 
and so forth that can be drawn upon, that can be available to 
us to do the followup work and coordinate from some of their 
other files perhaps in other districts, to see just what it is 
that we are--when we do make a stop like that, just who it is 
that we are dealing with. It could be that the person has only 
gotten the one arrest here, but he may have multiple arrests in 
other places that we would need to coordinate and followup on 
those investigations as well.
    It is very difficult when you have got a key player whose 
job it is to be involved with foreign nationals that you cannot 
go to--or you can go to them, but they are limited in what they 
can do and what they can accomplish to help you to investigate 
those foreign nationals and their involvement in drug 
trafficking. Methamphetamine is a prime example of that. The 
supply channels for methamphetamine, supply channels that we 
have seen in the northern Georgia area really are--in order for 
us to interdict those and to be successful in interdicting 
those, we have to have the involvement of INS. We just cannot 
accomplish it, in my view, without their full involvement. We 
will be successful at some level, but we will not make the kind 
of in-roads that I would hope we would want to see, without 
their help.
    Mr. Barr. If your office, just by way of comparison, if 
your office sustained a 43 percent budget cut, that would 
severely hamper your ability to carry out your mission, would 
it not?
    Mr. Deane. Absolutely, absolutely. We would be totally 
ineffective in handling our jobs.
    Mr. Barr. What would be--Mr. Fischer, what would be the 
Border Patrol Chiefs and the Immigration District Directors 
Association's position on the proposed restructuring?
    Mr. Fischer. The Immigration Directors Association, 
Congressman, has gone on record officially to the Commissioner 
saying that they cannot support the restructuring plan the way 
it is currently being formulated. The Chief Patrol Agents, to 
my knowledge, also have not shown a high degree of any support 
at all for restructuring.
    Mr. Barr. Is that because of the problems that we have been 
discussing here today, or are there others that are important?
    Mr. Fischer. Well, I think there are some issues; one, it 
is anticipated that it would be a very costly program, there 
has never been a price tag put on it. And Mr. Chairman, as you 
indicated when you were talking about our operating budget to 
support the people here in our four-State area, it is difficult 
for us to buy into a restructuring program that does not have a 
price tag on it when we are watching the soul and the heart of 
the investigations division be carved out. That is a concern.
    Another concern would be the response to State and locals 
and the full scheme to work with Mr. Deane's office, for 
example, and other entities, because as Mr. Deane indicated, it 
is not just an investigations process that is the law 
enforcement effort of the INS. The file has to go where the 
person is, there is a detention/deportation aspect, there is a 
trial attorney involved to present the case before the 
Immigration judge, that person also may work with Mr. Deane's 
office. And the way the restructuring is currently proposed, 
you would set up--it would set up zones and there is a shared 
services concept built within those zones. And any time you 
share something, you dilute it and there has been a high degree 
of concern from the Immigration Directors Association, as I 
said earlier that has been formalized to the Commissioner, 
about our concerns and that we could not support it the way she 
is currently providing it to the Congress.
    Mr. Barr. Mr. Chairman, you have been very kind and very 
patient in letting me run over time here a little bit. If I 
could just ask one other question. One of the aspects of our 
work, which is certainly one of the aspects of INS' work both 
here and in other district offices, is to assist applicants, 
applicants for citizenship. We have with us Ms. Jeanette 
Hutchinson, who does tremendous work I know with your office 
and with a lot of our constituents trying to solve problems of 
the time delays. I think we can all understand that there are 
going to be time delays involved in that process, particularly 
as we have more people seeking to become citizens, which is 
something very important obviously and we all support that.
    But the cutbacks in your budget, would it be accurate to 
say we have discussed also impact that part of your work as 
well, because are they not cutting back overtime and denying 
your folks and maybe Mr. Szafnicki also, use of that overtime 
that has been available and now is not available to have some 
of your people assist with the application backlog. So is that 
now creating problems?
    Mr. Fischer. Mr. Chairman, I am sure you remember the 
Citizenship USA issue and concerns that the Congress had and 
still does. In fact, we are being audited right now, our 
office, by our own Office of Internal Audit as part of the 
process to buildupon what Congress stipulated years ago. For 
the record, we did not ever naturalize anyone in the Atlanta 
District that was not eligible and deserving of citizenship. 
But as Congressman Barr indicated, we have gone from a process 
where when the initial application was filed, if everything 
when according to the process, that person more than likely was 
going to be sworn in within an 8-9 month window. Now it is at 
least 2 years. We have seen a tremendous increase in number of 
applications. We are concerned about the budget ramifications 
because we are talking about now user fees and we have see a 
fee increase for the application. And INS receives over half a 
billion dollars a year in the fees that come in and our staff 
has had some increases, but not to keep up with the number of 
applications.
    I cannot use any of Mr. Szafnicki's or Mr. Compos' or Mr. 
Anderson's staff because the requirements are so stringent for 
people who work the naturalization, you have to have certain 
training, you have to have a certain degree of accountability. 
But the process has gotten so--has had such a high degree of 
oversight, I have three adjudicators doing noting but re-
verifying what other adjudicators have done during the 
interview or the grant process. And that is to me very time 
consuming and it takes away from productivity that could lead 
to people having their applications processed quicker.
    Mr. Barr. Thank you. Thank you, Mr. Chairman.
    Mr. Mica. Thank you.
    You have covered, Mr. Fischer, a great deal of ground and 
answered some questions I would have asked relating to the 
problem we are now experiencing with the backlog. But it still 
mystifies me as a Member of Congress, that while we have 
doubled the amount of--more than doubled the amount of dollars 
to the agency, almost doubled the number of personnel in less 
than 5 years, and when you are facing potential cuts in the 
enforcement area and we still are not accomplishing the mission 
and only through the grace of some cooperation I think that we 
have heard testimony to the fact of here today with local 
agencies and State and others, are you able to accomplish the 
job that you are doing, at least from the enforcement 
standpoint.
    So it is important that we conduct these field hearings, 
that we find out what is going on, where the dollars are going, 
where the problems are, and we get that information back and 
try to make corrections.
    Just one final question since this subcommittee is entitled 
Criminal Justice, Drug Policy, and Human Resources, and we 
spend a lot of time on the drug policy; the U.S. Attorney 
indicated that you are seeing--there appears to be a link or 
Mexican connection, particularly in methamphetamines. Is that 
correct and is that documented?
    Mr. Deane. Well, yes, sir, it is, it is documented 
certainly by the cases that we are prosecuting. Consistently we 
are seeing trafficking patterns that involve Mexican nationals.
    Mr. Mica. DEA, you are seeing meth that you trace back to 
Mexico in new and significant quantities?
    Mr. Andrejko. That is correct. The ties lead directly to 
Mexico or they lead to trafficking groups in California and in 
Texas that have ties to Mexican organizations.
    Mr. Mica. You did mention cocaine I think one of you 
briefly. What about heroin, are you seeing any increase in 
heroin here?
    Mr. Andrejko. Not in the Atlanta Field Division. We are 
seeing still a consistent use of heroin but no great increase. 
We have seen over the past year and a half at times some large 
seizures, but when you look at it overall and put it in the 
perspective of not looking at it by a quarterly basis, by 
comparing it to a year or two process so to speak, the figures 
still indicate that it is consistent, no special increase or 
specific increase.
    Mr. Mica. But you are both seeing significant increases in 
activities among illegal aliens involved with this trafficking, 
is that correct, Mr. Deane?
    Mr. Deane. Yes, sir, that is correct.
    Mr. Andrejko. Yes, sir, that is also correct, yes.
    Mr. Mica. Well, I do not have any additional questions at 
this time. Mr. Barr.
    Mr. Barr. No. I appreciate these four gentlemen staying 
perhaps a little bit longer than we had anticipated, I think 
their testimony and response to the questions has been very, 
very enlightening and I appreciate their attendance very much. 
Again, if you would reiterate, Mr. Chairman, that any 
additional material that they might have, we would be more than 
happy to receive it.
    Mr. Mica. Yes, and additionally, the minority has asked to 
submit questions, which we will be doing. Those questions, 
without objection, and others submitted to you will be made 
part of the record.
    There being no further questions of this panel, I will 
excuse the panel at this time. Thank you.
    Mr. Barr. Thank you very much.
    Mr. Mica. I would like to call our second panel this 
afternoon and that panel consists of Mr. Mark Johnson, chief of 
police of Chamblee, GA; Captain Terry Neal of the Dalton Police 
Department; Mr. Bill Hutson, who is the sheriff of Cobb County, 
GA. We are pleased to welcome these three individuals to 
testify before our subcommittee this afternoon.
    I would like to welcome the witnesses this afternoon. Also, 
as I informed the first panel, I will just provide you with a 
few of the ground rules for our subcommittee and our hearing 
today. We are an investigations and oversight subcommittee of 
Congress and in just a minute, I will ask you to be sworn in. 
We do swear in all of our witnesses.
    We also ask that you limit your oral, verbal testimony this 
afternoon to 5 minutes, try to stay in that time parameter. We 
will, without objection, allow for the record the introduction 
of additional material, information, data for the hearing 
record upon request.
    So with those comments, I am pleased to welcome you. 
Gentlemen, if you could please stand and be sworn.
    [Witnesses sworn.]
    Mr. Mica. Thank you for joining us today and providing us 
with your insight. You know, we hear a lot of it in Washington 
from folks, but I think one of the best things we ever do in 
Congress is to get out and hear from local officials, 
particularly individuals in your capacity. Here we have local 
law enforcement representatives. We are proud of the job you 
do, and we have heard of your cooperative effort already from 
some of the previous panelists, but we think it is most 
important that you give us your candid observations as to how 
we from the Federal level can work with you at the local level 
to do an even better job. So with those comments, I am pleased 
to recognize Mr. Mark Johnson, who is the chief of police of 
Chamblee, GA. Welcome, sir, and you are recognized.

  STATEMENTS OF MARK JOHNSON, CHIEF OF POLICE, CHAMBLEE, GA; 
 CAPTAIN TERRY NEAL, CITY OF DALTON POLICE DEPARTMENT, DALTON, 
         GA; AND BILL HUTSON, SHERIFF, COBB COUNTY, GA

    Mr. Johnson. Thank you, Mr. Chairman.
    Mr. Mica. If you can, speak up as loud as you can. The 
acoustics are a little bit dull.
    Mr. Johnson. Thank you, Mr. Chairman and the rest of the 
members of the committee.
    Just for some background, the city of Chamblee is a small 
city located here in metro Atlanta. It covers approximately 3 
square miles and has a population of 8,000, of which 
approximately 41 percent are believed to be Latino. Chamblee 
also contains one of the most ethnically diverse census tracts 
in the State of Georgia. This diversity began growing in the 
middle 1980's with an influx of southeast Asian refugees.
    While the demographics of the city was changing slowly, a 
culture clash began to develop with the heavy influx of 
Hispanics that began in the early 1990's. At the same time, the 
crime rate in the city was increasing rapidly, drugs, gang 
activity and continuous graffiti problems were among the top 
concerns of our community. While it is not fair for us to blame 
all these problems on the influx of Hispanics, it is not 
unreasonable for the mainstream community to do so. It is also 
not surprising that this community demanded something be done 
about the problems.
    While most Hispanics are generally good people trying to 
provide for their families, many have entered this country 
illegally in hopes of finding jobs and a better life. This 
problem must be dealt with appropriately at the national level; 
however, failure to do so is clearly felt at the local level. 
While the city of Chamblee has become accustomed to its 
diversity and in fact is proud of it, the large number of 
Hispanics that enter the country illegally present a 
significant problem for us.
    Hispanic workers are culturally accustomed to looking for 
day labor type jobs. They generally stand in large groups, wait 
for contractors and others to come looking for the workers. 
Unless they are able to locate a company willing to violate the 
law regarding employing undocumented aliens without proper 
paperwork, that is their only option. These large groups of men 
standing around would usually start with numbers of 125 or 
more. Just the sight of an unusually large group of people 
standing on a corner can cause concern on the part of local 
residents. When combined with language and cultural barriers 
and the increasing crime rates, this concern can easily become 
fear. The large groups of day laborers also provide a 
background and cover for drug dealers to hide amongst.
    The Police Department in Chamblee believes strongly in 
community policing and in developing partnerships with the 
community to solve problems. Accomplishing this with a 
culturally diverse population is difficult enough, without a 
part of that population being in this country illegally.
    While we can work to overcome cultural barriers that are 
obstacles to effective law enforcement, we cannot overcome this 
undocumented status and the fear of law enforcement that comes 
with it. Rather than reporting crimes and working with law 
enforcement, most of these undocumented aliens run just at the 
sight of an approaching police officer. They are repeatedly the 
victims of street robberies and other crimes resulting in 
several having been murdered in the city of Chamblee.
    As I said earlier, I believe that the problem of illegal 
entry into this country must be dealt with at the national 
level, but I also firmly believe that much more needs to be 
done about undocumented aliens when they are found at the local 
communities. The city of Chamblee has been very proactive in 
dealing with its crime problems and community concerns. Several 
ordinances were passed to deal with specific problems such as 
day labor pools, loitering and vagrancy.
    Apartment complexes were inspected and required to come 
into compliance with all building and life safety codes. Many 
of these complexes were dangerous and unfit for habitation; 
however, they were primarily occupied by Hispanics that could 
not or would not complain because of their undocumented status. 
It is very difficult to work with these Hispanic communities 
and gain their cooperation because of their fear of law 
enforcement. Even the local nonprofit organizations are afraid 
to work with them for fear of jeopardizing their own tax-exempt 
status.
    The Police Department has focused its efforts on the 
criminal and offending actions of individuals and not where 
they are from or whether they are in the country illegally. I 
believe that one very important tool is missing from this 
concept though. While the local INS office has been very 
supportive of our efforts, they have been hampered severely by 
limited resources. They have worked with us in the past to 
round up known criminal aliens and this has had a great effect 
at the time that it occurred. It is, however, too far and few 
between.
    As part of community policing, we encourage apartment 
complex managers and owners to take more individual 
responsibility for the quality of the persons they rent to and 
to evict those that are found to be undesirable. It is a sad 
state of affairs that the local INS office does not have the 
resources to deal with such things as evicting an undocumented 
alien who has illegally entered this country, even after he has 
been arrested for a local crime. Many of those that we have 
arrested have been arrested repeatedly. Most have no 
identification and change their name regularly. Those that have 
identification, the identification is still suspect because of 
the amount of counterfeit identification being sold in our 
community.
    I would like to thank the District Director, Mr. Fischer, 
and his assistant Bart Szafnicki, for all the assistance they 
have given us in the past. But I would also like to thank the 
committee for the opportunity to make this statement and answer 
any questions, and I would encourage the committee to use 
whatever means are available to increase the resources that are 
available to deal with this problem.
    Mr. Mica. Thank you for your testimony. I will call next on 
Mr. Bill Hutson, who is the sheriff of Cobb County, for his 
statement.
    Mr. Hutson. Thank you, Mr. Chairman, for the opportunity to 
present testimony to the subcommittee. I certainly appreciate 
and want to thank Congressman Barr.
    For more than 20 years, I have had the privilege of serving 
the citizens of Cobb County as the County Sheriff. Throughout 
the years, I have seen our county change from basically a rural 
community with a population of less than 200,000 people to an 
urban county that has a population of more than half a million 
people today.
    During that period of time over my years as sheriff, we had 
a jail population of less than 200 inmates; today, many days 
our jail population exceeds 2,000 inmates. We routinely process 
in to our facility more than 30,000 individuals each year. 
Recent statistics show that more than 5 percent of the inmate 
population at the Cobb County Adult Detention Center is 
comprised of illegal aliens. The number of inmates is a 
significant cost to the taxpayers of Cobb County.
    More than a year ago, in February 1998, the Sheriff's 
Office was asked to participate in a pilot program with INS. 
Through a cooperative effort, the Sheriff's Office and INS were 
able to identify and deport illegal aliens who had committed 
felony criminal acts in Cobb County. When the program first 
began, the Immigration and Naturalization Service had one full 
time agent at our jail. However, as the illegal population 
grew, two full time agents were required to handle this 
interviewing process and all the documentation and paperwork 
that accompanied it. In order to keep up with the increasing 
number, it was necessary for INS to create a command center at 
our jail. In November 1998, INS began a video-teleconference of 
interviews with illegals from the jail. They provided the 
equipment and training to the Sheriff's Office staff. 
Currently, interviews are held at the jail Monday through 
Friday at a specific time. A substantial savings in INS 
personnel resources is realized by agents being able to 
interview from their office in downtown. This cooperative 
effort between the Sheriff's Office and INS Services has been a 
very positive endeavor between the local and Federal 
Government.
    Over the past year, 926 foreign-born inmates have been 
interviewed with more than 350 illegal aliens, that were 
previously housed at the Cobb County Jail, having been 
deported.
    I would strongly recommend to this subcommittee and to you 
gentlemen as Members of Congress that you consider additional 
appropriations to INS, not only in the other areas, and 
services like the program that we are operating today, I think 
should be expanded into jails all across the State of Georgia 
and possibly across this country. But this is an area that I 
think Congress should direct some--seriously direct some 
resources.
    I am going to tell you, it is not in my prepared remarks, 
but we are not going to deal with this problem of illegals in 
this country until the United States gets serious about it. And 
when they get serious about it, they will appropriate the money 
to do the job with.
    Thank you, gentlemen, I will be available for any questions 
you may have.
    Mr. Mica. Thank you for your comments and testimony. I 
would like to recognize Captain Terry Neal with the Dalton 
Police Department. You are recognized, sir.
    Mr. Neal. Mr. Chairman and other members of this committee, 
I appreciate the opportunity to come and speak with you today.
    To give you a little background of our city, the city of 
Dalton is a small community located 90 miles north of Atlanta, 
GA, on Interstate 75. We are a community of approximately 
30,000 residents in the city and a total of 100,000 residents 
county-wide. This was as of the last census. We are known as 
the carpet capital of the world. All the major carpet 
manufacturers are home-based in Dalton, GA. We have an 
estimated 77,000 jobs in our community and because of this, we 
have attracted a large Hispanic population to Dalton to fill 
these jobs, the majority of which are illegal aliens.
    We started seeing an influx of these workers in the early 
1990's and it has steadily increased until today we estimate 
the population at 40,000 people. Our schools are now 45 percent 
Hispanic, some of which are 90 percent Hispanic. The 
government-funded housing is almost all Hispanic. Along with 
these workers and their families comes a large element of 
crimes that we as a small law enforcement agency of 74 sworn 
officers, are unable to deal with. We started seeing gang 
activity, large drug smuggling shipments, graffiti on buildings 
and an increase of crime, which we attribute mainly back to the 
Hispanic community. While we welcome the legal Hispanic 
community to Dalton, GA, we cannot tolerate the crimes being 
committed by illegal aliens.
    Because of the crimes and the outcry from the citizens in 
the community, the mayor and Council, along with the County 
Commissioners came to local law enforcement and asked what we 
could do to alleviate this problem. The Dalton Police 
Department's Chief James Chadwick contacted Bart Szafnicki with 
Immigration and Naturalization Service. He set up a meeting 
with local government to deal with the problems, from this was 
born a local task force which addresses just these problems.
    The task force was set up to address criminal aliens 
involved in drug smuggling, alien smuggling and other crimes 
involving illegal aliens in our community. Currently, we have 
two Dalton police officers assigned to the unit and two INS 
officers and a secretary. This unit was established in 
September 1995 and has performed remarkably with the small 
resources allocated to it. We have approximately 25,000 to 
30,000 illegals in the Dalton-Whitfield County and surrounding 
area and the number is increasing every day. This task force is 
doing everything it can to combat the problem, but they are 
overwhelmed by the number of aliens.
    We feel as a small community, as I am sure other small 
communities do, that we all need the help at the Federal level 
to combat these problems. We as local law enforcement cannot 
deal with the large volumes of illegal aliens smuggled into the 
community and along with them drug smuggling and the gang 
crimes associated with these aliens. We need more interior 
enforcement of these problems. Just Dalton alone could keep 10 
to 15 INS agents busy all the time.
    We are grateful and we commend the efforts of Bart 
Szafnicki and his INS agents in support of our problem. When I 
say our problem, I mean local, State, Federal problem.
    We ask the subcommittee to expand the efforts already 
underway and to commit more resources to this problem.
    Thank you, sir.
    [The prepared statement of Mr. Neal follows:]
    [GRAPHIC] [TIFF OMITTED] T4043.012
    
    [GRAPHIC] [TIFF OMITTED] T4043.013
    
    [GRAPHIC] [TIFF OMITTED] T4043.014
    
    [GRAPHIC] [TIFF OMITTED] T4043.015
    
    [GRAPHIC] [TIFF OMITTED] T4043.016
    
    Mr. Mica. I thank each of our panelists for their testimony 
and I would like to start off with a few questions, if I may.
    There have been some proposals, I think you heard one of 
them, about to come from Washington, to start a point system 
that would let some of these folks out. I guess for a sexual 
offense, you get 2 points but you can get out if you have less 
than 5. How would you all like that rating system to deal with 
the problem? Mr. Johnson.
    Mr. Johnson. In a perfect world, I would not like that.
    Mr. Mica. Sheriff Hutson.
    Mr. Hutson. I would be very much opposed to that. That 
proposal, if I understand it, comes from an administrative 
proposal inside a Federal agency, is that right?
    Mr. Mica. Well, it has been withdrawn but it was proposed.
    Mr. Hutson. Did they propose that to you or----
    Mr. Mica. Well, it was proposed to deal with the problem 
because we are getting more and more folks----
    Mr. Hutson. I would have a serious problem with that and if 
I were a Congressman, I would also have a problem if they were 
trying to circumvent the laws of the United States by some 
administrative procedure. I would have a serious problem with 
that.
    If you are going to do that, then Congress should say these 
people should be allowed to stay. You know, that is another way 
of--and we all know this is happening today--INS has a limited 
amount of dollars to remove illegals from this country, to 
deport them. And we all know that people are not deported 
simply because of lack of funds. That is real.
    Mr. Mica. Mr. Neal, you do not favor letting these folks 
out as a solution?
    Mr. Neal. Well, I do not think you can put a point system 
to criminals and I do not think that is a solution. I think the 
solution is going to be adding more resources and dealing with 
the criminals.
    Mr. Mica. Well, one of the problems we have and one of the 
purposes of this hearing is that we have put double the amount 
of money into this agency. I think I cited the figures of $1.5 
billion to $3.8 billion in less than a 5-year period. That is a 
significant amount of our tax dollars. We have increased the 
personnel positions from 18,000 to 29,000 and you heard the 
enforcement branch here is not only facing proposals to let 
folks out on the street who have committed criminal acts or are 
here illegally but also proposals to dramatically cut their 
budgets for enforcement. So part of the purpose is to find out 
where the dollars are going, why we are in this situation and 
how it is affecting you as a local community and law 
enforcement officers.
    Sheriff, you told me about 5 percent of your population is 
illegals. Are you also participating--are those folks that are 
housed there being paid for by the Federal Government from INS 
funds?
    Mr. Hutson. No, sir.
    Mr. Mica. These are just your folks?
    Mr. Hutson. Those are the folks that we identified.
    Mr. Mica. You picked up for some criminal act.
    Mr. Hutson. Right, they are charged with a State offense.
    Mr. Mica. What kind of cost impact does this have to your 
community?
    Mr. Hutson. It is substantial. The average cost of housing 
inmates is more than $30 per day and that does not include any 
capital outlay for construction of facilities.
    Mr. Mica. And the local taxpayers pick this up, there is no 
reimbursement from the feds for any of that cost?
    Mr. Hutson. That is correct.
    Mr. Mica. Did I hear you, Mr. Neal, say that you have--what 
was the population you cited, estimated, of illegals in this 
area?
    Mr. Neal. The estimated in the Dalton-Whitfield area, which 
would be a surrounding area, Murray County also, which is 
adjacent to us, it is probably going to be in the area of 
40,000.
    Mr. Mica. How many?
    Mr. Neal. 40,000 Hispanics.
    Mr. Mica. Four-zero, 40,000?
    Mr. Neal. Yes.
    Mr. Mica. That is astounding.
    Mr. Neal. We have probably 25,000 illegals, of that.
    Mr. Mica. Absolutely astounding. Now, I do not want anyone 
to think too that this panel is in any way here in any manner 
to not support legal immigration.
    Mr. Neal. Right.
    Mr. Mica. You are looking at somebody whose grandparents on 
both sides were legal immigrants to this country. I have seen 
their papers from Immigration and Naturalization, and I could 
not be a stronger supporter. I think that is what has made this 
country great, the diversity it has provided and still 
provides. I still support legal immigration, we all got here, 
except for Native Americans, by the process of immigration, but 
illegal immigration has completely distorted what this country 
is about and the problems it is now bringing.
    The offenses that these folks are coming in on, we heard 
drug offenses have been increasing; is that correct? What are 
you seeing, Mr. Johnson? Narcotics?
    Mr. Johnson. Narcotics, drugs and then for us a lot of it 
was just--it started with regular quality of life offenses. As 
I said, it was a cultural issue and it started there. I would 
like to re-emphasize what the chairman said. We are proud of 
the diversity in Chamblee, but the undocumented or illegal 
aliens basically create almost a separate class of people that 
are not protected and cannot avail themselves of the services, 
are victimized. So it is not just the crime problem, it is the 
whole effect on the community.
    Mr. Mica. Again, my question, Mr. Neal, dealt with the 
kinds of crimes you are seeing being committed by the illegals.
    Mr. Neal. The major crime right now is methamphetamine drug 
smuggling. Basically the same networks that were set up in the 
early 1990's to smuggle the aliens into our community, they are 
being used, those networks are being used to smuggle 
methamphetamines, marijuana.
    Mr. Mica. Going from crack and marijuana to meth?
    Mr. Neal. Yeah. Well, we still have a large amount of 
marijuana coming in also with the meth, but it's Mexican 
marijuana and also the Mexican connection to methamphetamine.
    Mr. Mica. Sheriff, if I was to inventory your 926 folks who 
were interviewed, what were they there for last year?
    Mr. Hutson. Many of them for illicit drugs, illegal drug 
activities. I am sorry I do not have it broken down by classes 
of crime, but it runs all across.
    Mr. Mica. You testified that 350 of the 926 were deported?
    Mr. Hutson. Yes, sir.
    Mr. Mica. Where did the rest go?
    Mr. Hutson. Back on the street.
    Mr. Mica. Basically back on the street?
    Mr. Hutson. Yes. Something you said earlier--excuse me for 
interrupting--I think everybody in the law enforcement 
community, certainly we in the Sheriff's Office, respect the 
fact that there is a legal means for people to come into this 
country from foreign countries. We do not have a problem with 
that. When we talk about the problems----
    Mr. Mica. I am glad to hear that because I would be in 
trouble.
    Mr. Hutson. I probably would too, but----
    Mr. Mica. No, but we do want people to know the light in 
which we conduct this hearing and the purpose of it is to look 
at the problems created by illegal aliens and also the 
resources that are provided from the Federal level to deal with 
this problem. And when they are not getting into the community 
such as Atlanta--when you cite the numbers that you cite that 
are absolutely astounding, there is something gone askew with 
the whole system. And certainly if that is not a Federal 
responsibility, protecting the borders and those that transit 
across those borders, I do not know what is.
    The programs that we heard described here, the cooperative 
programs, I think the Sheriff had indicated that there is no 
reimbursement, there are no resources provided--or if you do 
have any programs with resources provided or reimbursement, 
could you convey those to me, Mr. Johnson? Is there anything 
where you get Federal assistance, cash resources, personnel, 
equipment?
    Mr. Johnson. To our agency, no, sir.
    Mr. Mica. So what you are doing is purely a cooperative 
effort assisting a Federal agency?
    Mr. Johnson. That is correct.
    Mr. Mica. And Mr. Neal, the same?
    Mr. Neal. It is the same situation with us, they provide 
the agents and we provide the office secretary and all the 
makeup of the unit.
    Mr. Mica. So all the projects are voluntary, no 
reimbursement, no resources from the Federal level?
    Mr. Neal. Right.
    Mr. Mica. Even an education, I think, would provide some 
impact where we have problems. That is interesting that you are 
impacted by Federal policy, but have no reimbursement, no 
assistance coming from the Federal level.
    What would you view as the Federal Government's strength in 
dealing with this problem versus your agency's? And then what 
are the weaknesses? If you could describe for the panel what 
tools or what abilities we have to deal with this problem that 
you do not, and then what do you think we could do with those 
resources to better deal with the problem? Mr. Johnson.
    Mr. Johnson. The biggest resource that comes to mind is the 
manpower and the money, the financial backing to do something.
    Mr. Mica. What about the laws? Are the Federal laws 
adequate to deal with it? We have passed, and you have heard 
maybe a description either by the witnesses or in other 
discussions here, the laws that we have passed the last few 
years. Now we at the Federal level have been very concerned 
about this problem and we may have--well, we had a program in 
effect a couple of years ago where they were just wholesale 
naturalizing folks and thousands of criminals got naturalized. 
Congress stepped in and put the brakes on some of that. Now it 
sounds like there is a bit of over-management to the program 
and the thing has sort of ground to a halt, but we also have 
the problem of the influx of vast numbers of illegals.
    How are we dealing with it, how should we be dealing with 
it? This is your chance to tell us what you think, Mr. Johnson, 
and then we will get to the other two.
    Mr. Johnson. From--Mr. Chairman, from my perspective, with 
a small city, in order to deal with our community problems, we 
have had to take the stance that the influx of undocumented or 
illegal aliens is something that has to be solved on a much 
larger scale, and we have tried to deal with the actions, the 
offenses that they may commit while they are here. The problem 
that I see or that we have had is that the resources are not 
there from the INS and at the national level to deal with even 
the offending illegal aliens. As I understand the Federal laws 
that you are referring to, they all amount to instructions 
about prosecuting people for illegally entering a second time 
or multiple times. I am referring even more so, as I compared 
it to an apartment complex, a first time person that came in 
here that may have been working and then violates our laws. 
Those people, as the Sheriff said, are just put back on the 
street.
    Mr. Mica. So we do not have a way to deal with them.
    Mr. Johnson. We do not even ask any more.
    Mr. Mica. The U.S. Attorney said the same thing, that he is 
dealing with those that committed an aggravated felony, and the 
numbers are so huge that you are not able to deal with it.
    Is that what you are seeing, Mr. Neal?
    Mr. Neal. I would say so, it is the same problem. We need 
some laws that will deal with just the illegal aliens being in 
here that may be carrying a bad card. The way we are combating 
this is on the State level, charging them with forgery by 
possession of a forged document. And at that point, INS will 
either incorporate it up on a State level, or they will not. If 
they do not incorporate it up, then we actively prosecute that 
on a State level and we send them to prison, either that or 
they will flee. And when they come back out, they also are 
deportable as a criminal alien because of the statute that we 
charged them on.
    The Federal laws could be a little more strict and give 
some teeth into what you do with just an illegal being on the 
street, if you pick him up. But that is an overwhelming task, 
especially in my city, because I can load busload after busload 
of just illegal aliens. We deal strictly with criminal aliens 
that have committed a crime. But really you need to have more 
resources down to the street level. If their budget has 
doubled, I have not seen it since my dealings with INS, it has 
not come down. There are rumors that they car pool to get to 
work, they are short on gas money, all resources are short. I 
do not know how extensive this is, but I think that money needs 
to be allocated down and cut out the bureaucracy.
    Mr. Mica. If it is frustrating for you, imagine how 
frustrating it is for us. We passed those laws in 1996, we 
passed the budget increases and Mr. Fischer still has 290 to 
300 personnel.
    Sheriff, did you want to comment?
    Mr. Hutson. Yes, sir. I have had a chance to observe entry 
points in the southwestern part of this country and what goes 
on there, the flow of illegal drugs across that southwest 
border. We all know that the majority of the illegal drugs in 
this country are moving across the southwest border now, also 
the illegal aliens. And the same principle applies to that, 
when a truckload or trunk of a car filled with illegal cocaine 
comes across that border into the United States and that comes 
to Cobb County, GA and it is divided up in small amounts to go 
out to the street level, do you realize how much it costs the 
taxpayers of this county to try to remove those illegal drugs 
then? I really think that Congress should look at doing a 
better job with the Border Patrol. Those people have an almost 
impossible job and I am sure you have probably seen some of the 
same things I saw last summer on the southwest border. But they 
have a very difficult job.
    If the U.S. Government is going to be serious about dealing 
with this problem of drugs and illegal aliens, they have got to 
make a commitment to protect those borders before it comes in. 
You get a lot more accomplished for your dollars by dealing 
with those border points.
    At the same time, I think we are going to have to deal with 
it here locally and I think you heard these gentlemen talk 
about it today, there is a lack of personnel and resources, 
monetary resources of INS, to do their job properly. Now you 
are talking about the increase in dollars that the Congress 
appropriated, look at the amount of illegal activity that has 
increased, I assume with that.
    Mr. Mica. Thank you, Sheriff. You will be pleased to know 
that we have tried to turn around some of the past mistakes of 
the 1993 to 1995 Congress and administration when they 
dismantled a lot of the interdiction and eradication programs. 
I think it is our first responsibility to stop the drugs at 
their source, where they are grown, where they are produced, 
and then catch them along the way before they get to the 
borders through interdiction, through use of whatever means, 
including the military. We are getting back to that. This 
subcommittee actually is in existence and entitled Criminal 
Justice, Drug Policy, and Human Resources really at the 
suggestion of this Speaker, Mr. Hastert. Mr. Barr, myself and 
others worked with him in the past trying to put this effort 
back together. We put almost $1 billion into this last year, 
some of it we are trying to get out there, to restart those 
source country programs and stop them. We know it is very 
difficult when the illegal narcotics get to your streets, as 
you said, and are divided up, it becomes almost an impossible 
task to catch all of those drugs, the criminal activity at the 
street and community level, that is involved with the 
trafficking and distribution. So we are also working on that 
problem getting additional resources there.
    This hearing is going to find out why and make corrective 
changes as to why this community and this area and this 
district is not getting the resources it needs, even though we 
are appropriating the positions and the dollars to deal with 
the problem relating to illegal aliens. So we will work on both 
of those issues. I just wanted to provide that as a commentary.
    I would like to yield now to the vice chairman of our 
subcommittee, Mr. Barr.
    Mr. Barr. Thank you, Mr. Chairman, and I would like to 
personally welcome the three very distinguished witnesses we 
have before us today, each of whom has tremendous experience in 
public service as police chief, deputy chief and as the sheriff 
here in Cobb County.
    I believe, if I am not mistaken, all three of you listened 
in on the previous panel?
    Mr. Johnson. Yes.
    Mr. Hutson. I heard some of it. My other Congressman was 
bending my ear a little bit.
    Mr. Neal. Yes.
    Mr. Barr. Well, that has been known to happen, Congressmen 
are like that. But we appreciated very much Congressman Isakson 
being with us for a short period of time today, even though he 
is not on this particular panel. He is a tremendously important 
asset to us because he understands these problems as well and 
is working to solve these problems.
    But did all of you get a feel--and I think also from 
Chairman Mica's remarks--that we are trying at the national 
level to put our money where our mouth is and put the money 
where the Federal law is? Immigration is a Federal 
responsibility. Certainly addressing the problem of illegal 
aliens, because it impacts local communities, is best addressed 
by having joint task forces and a joint approach. And from that 
standpoint, its enforcement is a joint responsibility, but 
ultimately, as you have indicated, Sheriff, in your opening 
remarks, this is a Federal problem. And until the Federal 
Government gets serious about it, it is not going to be solved.
    We have been trying over the last 4 years to solve the 
problem at least from the standpoint of providing significantly 
enhanced resources to the INS and, in particular, for interior 
enforcement. They have received very significant increases for 
border enforcement as well, and I know your experience there is 
very accurate, as you described it.
    But as Chairman Mica said, we share your frustration 
because the problem is increasing out there. We have been 
appropriating what we have believed to be, if not sufficient 
resources to solve the problem, at least sufficient resources 
by more than doubling them over just the last few years, to 
much better address the problem. Yet, as we have heard from the 
previous panel, those resources are not getting from Washington 
down to the district where they could really help you all. And 
I must say that with the limited resources that you all have to 
work with with INS, as was indicated with INS and DEA 
previously, they all are doing remarkable things and I commend 
you for that.
    With regard, Sheriff Hutson, to your particular program 
that you mentioned, and you were kind enough to show me this 
particular portion of the work in your county jail, the video-
teleconference interview system; does that take the place of 
the two INS agents that had been full time?
    Mr. Hutson. Yes, sir, that takes the place of them 
physically being there at the jail. We can do everything with 
that video-teleconferencing that we could do when they were 
physically there in the facility.
    Mr. Barr. Do you find that it works out actually better, 
and that it is more efficient to do it that way, or was it 
better to have the two agents there?
    Mr. Hutson. Well, we get a lot more for our money with the 
teleconference.
    Mr. Barr. Do you know the cost of that system?
    Mr. Hutson. No, I am sorry, I do not, Congressman. INS paid 
for the equipment, I think we put the cable in, but they paid 
for the equipment and I am sorry, I do not know the cost of 
that equipment.
    Mr. Barr. OK. District Director Fischer or Bart, do you 
know the cost of that particular system?
    Mr. Fischer. About $24,000, sir.
    Mr. Barr. So $24,000, significantly less than having one or 
certainly two agents.
    Mr. Mica. We may need to let the record reflect that it was 
a response from Mr. Fischer and the answer was $24,000.
    Mr. Barr. $24,000, which is significantly--at least I hope 
it is significantly less than it would cost to have one or two 
agents out there. That is very interesting and that might be 
something, Mr. Chairman, that we could look into, to provide 
more programs like that. They seem to be very cost-effective.
    With regard, Captain Neal, to the local task force you 
addressed, who all participates in that? Is it just your 
department and the INS or are there other jurisdictions also?
    Mr. Neal. It is actually funded by the city of Dalton and 
by the Whitfield County Commissioners, it is joint funding, 50 
percent by each. I have a budget of $200,000. From that, I 
operate an office with two Dalton investigators and a 
secretary. The INS has two agents assigned to it and they have 
some computer equipment assigned so they can check and verify 
aliens.
    Mr. Barr. And this task force, is it just to handle the 
problems in the city of Dalton?
    Mr. Neal. Well, in actuality it is really north Georgia. We 
respond to Calhoun, we have gone to Cartersville, Rome, Murray 
County, Walker County, Catoosa County. And we have responded 
out to the interstate on interstate interdictions by the GSP. 
They are sworn deputies and the task force actually responds to 
all of northwest Georgia. But it is funded by the city and the 
county.
    Mr. Barr. OK, and the figures that you provided, both in 
your written testimony as well as a response to questions from 
Mr. Mica, you say you have approximately 25,000 to 30,000 
illegals in Dalton, is that just in the city?
    Mr. Neal. Not just in the city, no, sir, that is within the 
hub of the carpet industry there and it would also encompass 
Murray County. Those figures in actuality come from Central 
Latino. Central Latino is a Hispanic outreach group that is 
based in Dalton, GA. And that and our enforcement is how we get 
our numbers. They estimate that they have about 40,000 there 
and from our enforcement efforts and going in on these 
industries and doing inspections, we estimate that probably 
25,000 are illegal.
    Mr. Barr. Sheriff, do you have any figures that you could 
provide to us for comparison purposes in your jurisdiction, 
which is all of Cobb County, encompassing I guess five 
municipalities including Smyrna where we are here today, what 
the nature of the illegal immigration problem is, how many 
illegals do you estimate you have in the county?
    Mr. Hutson. I am sorry, Mr. Congressman, it is real 
difficult to get a handle on the numbers, and I would be 
reluctant in this large area because there is constant 
movement, the day laborers, it is real difficult.
    You know, one thing that I did not point out in all this 
and I probably could speak for the law enforcement community at 
the local and State level, Tom Fischer and John Andrejko, the 
guys we work with, people in the U.S. Attorney's Office, we 
have a good working relationship, those people are real 
cooperative to deal with. I do not want anything I have said 
today or probably anyone else to imply anything otherwise. I 
think they are great people to work with and I commend them for 
the job they do.
    Mr. Barr. I do too, and I think we all are unanimous in 
that the problems we are pointing out are simply problems with 
funding from Washington.
    Mr. Hutson. Right.
    Mr. Barr. Not getting the resources that we have been 
trying to direct to the District so that Mr. Andrejko and INS 
Director Fischer and Bart Szafnicki and the U.S. Attorney can 
do a better job pursuant to what we in Congress would like them 
to do. But they are doing a tremendous job with the resources 
that they have and I am very glad to hear of the cooperative 
spirit between your office and the Federal officials, which was 
my experience when I served as U.S. Attorney.
    Chief Johnson, with regard to your work in Chamblee, you 
made some very interesting points with regard to the nature of 
dealing with the immigration problem involving illegals, even 
to the extent that it hampers a lot of the social services 
agencies, I think you talked about, and even the nonprofits, 
you mentioned the nonprofit organizations that try and work 
with illegals.
    Do you find that the best approach is to try and work with 
all different agencies in the community, not just law 
enforcement, but the different social services agencies to try 
and get a handle on the problem?
    Mr. Johnson. That is absolutely correct, Mr. Congressman. 
You use everybody that you can and that was one of the problems 
that we faced early on when we first tried to do something with 
the problem, we tried to recruit a lot of the nonprofits. They 
were working with the communities, providing job services, 
advice, but they were clearly doing it and said so, that they 
could only do that to documented citizens for fear of losing 
their tax-exempt status or repercussions.
    But yet those would be the same people that would point the 
finger at law enforcement and say we were being too aggressive 
or too--picking on one ethnic group over the other. And I kind 
of basically say it is a little unfair, if they are not able to 
get in the trenches with us and do something, they can sit back 
and take pot shots.
    Mr. Barr. It's politics too.
    Mr. Johnson. It is not just the crime, it creates a whole 
group of people in the community that are just--cannot avail 
themselves of the services and they are victimized by their 
own. And again, where do we draw the line? I think Sheriff 
Hutson said what I say all the time, that it is obvious to us 
that at the Federal level, even though we are putting more 
resources to it, or Congress is, enough is not being done. And 
while the people are freely able to come into the country 
illegally, the least that we can do is take action against 
those that while they are here illegally break laws other than 
as has been mentioned two times for child molestation or one of 
this or one of that. That is hard to explain to my community 
that well, I know they are illegal and they are not here 
legally, but they have not broken enough laws to be evicted or 
removed from the country.
    Mr. Barr. Well, that is why we spent some time talking with 
Mr. Fischer about that and hopefully that proposal will not see 
the light of day. I know that it had been a problem because it 
was proposed earlier this year by some folks in Washington 
apparently.
    I know you, Chief Johnson, had mentioned the problem with 
day labor pools. Is that a problem, Mr. Neal, in your area or 
is the nature of the illegal employment problem different up 
there because of the carpet business?
    Mr. Neal. No, it is a little different. The nature of the 
carpet industry, we have 77,000 jobs in Dalton-Whitfield area 
and they are all going in and either through temp services, 
going into the carpet industry or they are hiring directly into 
the carpet industry. It is not day labor.
    Mr. Barr. Sheriff, what is the nature, if you can summarize 
it, of the illegal employment problem in Cobb County? Do you 
see both the problem that Chief Johnson has with day labor and 
whatever disruptions there might be with that, or is it a 
different problem?
    Mr. Hutson. No, there are areas of the county where there 
is a large congregation of people and we just assume that some 
of these are illegally here, where they congregate, 
construction does pick them up off the street.
    Mr. Barr. Do you have any particular problems associated 
with that in your experience?
    Mr. Hutson. Yes, there are problems. We get constant 
complaints from businesses about them loitering in a particular 
area in the mornings, primarily in the mornings, up until maybe 
midday.
    Mr. Barr. Is part of the problem--and I direct this to all 
three of you--is part of the problem the fact that there are 
employers ready and willing and able to hire illegals and is 
the Federal Government not doing enough to stop that, or to 
enforce the existing laws, or are the existing laws not 
sufficient to enforce it, to stop it?
    Mr. Neal. I would think that the resources are not 
sufficient to stop it. We do educational seminars with our 
employers all the time about spotting illegal documents, 
spotting illegal aliens. The overall majority is they want to 
do that, they want to do it correct, and we have focused on 
them stating that we are not trying to take your work force, we 
are just trying to make your work force legal. They want to do 
it and they want to do a good job and we do that through 
educational programs with them, but there are unscrupulous 
people there that would rather hire the illegals than hire 
legal people. And we have targeted those and been successful on 
taking out a few of the targets there with employers. We have 
charged employers for knowingly hiring. That is not a large 
majority, but the majority of them really want to do the right 
thing. They are confused by Federal law and what it takes and 
what requirements they have to have to fill out the I-9s. We 
try to establish that, but really it is going to take a lot 
more resources to get inside and target from that end than what 
they have allocated to them.
    Mr. Barr. Chief.
    Mr. Johnson. Again, as we were saying earlier, the 
experience in Dalton versus Chamblee is completely different 
because of the type of business. With us, it is primarily day 
labor and it is unscrupulous employers. We have an ordinance 
that we passed 18 months ago that dealt with assembling for day 
labor purposes and it basically says that you cannot do it on 
private property, you cannot either hire yourself as day labor 
or hire--for a contractor to pick somebody up, without the 
owner's permission. So we have been able to cite a lot of 
contractors for doing that. They knowingly are coming into 
these places to these day labor pools and picking up people and 
they could care less about their legal status, about filling 
out an I-9, and it is a daily basis. We have several locations 
that have 100 plus people waiting for work every morning--
landscapers, construction people, that whole trade in the 
Atlanta area is very heavily involved with hiring undocumented 
people.
    Mr. Barr. Are any of the three of you familiar with the 
Operation South PAW that we talked briefly about previously? 
Chief, Deputy Chief Neal, are you familiar with that, were you 
involved in that?
    Mr. Neal. We participated in it, yes, sir.
    Mr. Barr. And Sheriff?
    Mr. Hutson. [Nods head.]
    Mr. Barr. Would all of you agree that that was a very 
positive operation?
    Mr. Hutson. Yes.
    Mr. Neal. Without a doubt.
    Mr. Barr. And it probably would be worthwhile to do more of 
that?
    Mr. Neal. Yes, sir.
    Mr. Johnson. That was what I was referring to when I talked 
about some of these operations were too few and too far 
between. If anything, until the borders can be protected 
properly, that helped at least keep it a little bit honest. In 
the process, my biggest concern is the backlash from the 
community when you try to take the stance that we cannot solve 
the national immigration problems so we are going to deal with 
actions. Somewhere there is a line that that word can get out 
that in Chamblee it is kind of open season, they are not going 
to worry about immigration, so where do you draw that line. 
Things like South PAW and some of the other operations that 
have been done at least give the message that it is not just a 
free ride that you can go unchecked whatsoever.
    Mr. Barr. So it would be fair to say that in your judgment, 
worksite enforcement is an important part of the overall 
interior enforcement effort by INS, it ought to continue and 
ought to be expanded.
    Mr. Johnson. Absolutely.
    Mr. Neal. Yes, sir.
    Mr. Barr. Thank you. And I presume that Mr. Fischer and Mr. 
Szafnicki would agree with that. That is one reason why we are 
holding this hearing today, to identify those aspects of the 
effort that have worked in the past in trying to encourage 
through the appropriations process perhaps more of that in the 
future.
    Thank you, Mr. Chairman, and chief and Deputy Chief Neal 
and Sheriff Hutson, we very much appreciate your law 
enforcement work generally on behalf of our citizens and your 
taking time to be with us today to share your very valuable 
insights.
    Mr. Mica. Before we move to the next panel, I just wanted 
to see if any of our witnesses had any final comments, anything 
we may have missed. This is your chance. We have got Mr. Barr 
in a captive situation.
    Mr. Barr. The Sheriff always has me in a captive situation, 
I am one of his constituents.
    Mr. Mica. This panel is open to your recommendations. 
Anything else you would like to add at this point, Mr. Johnson, 
Mr. Neal?
    Mr. Johnson. No, sir.
    Mr. Neal. No, sir.
    Mr. Mica. I have never seen a more cooperative group in my 
life, Mr. Barr.
    Mr. Barr. You are in Georgia.
    Mr. Mica. Yes.
    Mr. Barr. We aim to please.
    Mr. Mica. Thank you. We do sincerely appreciate your 
participation. Believe it or not, all the answers are not in 
Washington and we do struggle to try to be responsive and make 
these programs and agencies work to everyone's benefit, but it 
will not work unless we have dedicated public servants like you 
come out who are willing to participate and let us know how we 
can improve the system.
    So I thank each of you for your participation today and 
your work on the local level.
    We have a request for a 5-minute recess, which we will make 
into 7 minutes and then we will call our third panel forward. 
So we will stand in recess until 25 minutes before the hour.
    [Recess.]
    Mr. Mica. I would like to call the subcommittee back to 
order and ask, if we could, our two witnesses to be seated.
    Our third panel this afternoon consists of Ms. Cassie Cole 
who is with the Parole Office in Smyrna, GA. Our other panelist 
this afternoon is a local business owner, Mr. Dan Bowles. I 
would like to welcome both of you this afternoon and thank you 
for providing testimony.
    As I mentioned to the other panelists, this is an 
investigations and oversight subcommittee of Congress and for 
that purpose, we do swear in all of our witnesses. I do not 
want this to be too intimidating and we do appreciate citizens 
coming forward and volunteering their testimony and also I did 
mention that we do try to limit the verbal or oral testimony 
before the subcommittee to 5 minutes and you are welcome to 
submit additional documentation or information or lengthy 
written statements to the subcommittee.
    So with those comments, if you could please, would you 
stand and raise your right hands.
    [Witnesses sworn.]
    Mr. Mica. The witnesses answered in the affirmative, and 
again, we are pleased to have you both come and give testimony 
to our subcommittee this afternoon. As you have heard, the 
title of this hearing is INS support for local efforts, are 
there sufficient Federal resources; and we have heard some 
perspective from the Federal agencies, both INS, DEA, other 
Federal agencies, U.S. Attorney's Office, and then we heard 
some from our local enforcement officials, the sheriff and 
police and local officials. Now we would like to hear your 
comments as to how you view the situation and any 
recommendations you may have in regard to the subject at hand 
today.
    With that, I will recognize first Ms. Cassie Cole, who is 
with the Parole Office of Smyrna, GA. You are recognized, and 
welcome.

 STATEMENT OF CASSIE COLE, PAROLE OFFICE, SMYRNA, GA; AND DAN 
                  BOWLES, LOCAL BUSINESS OWNER

    Ms. Cole. Thank you, sir; thank you, Bob Barr, for the 
invitation.
    Mr. Mica. As loud as you can speak.
    Ms. Cole. Sorry. Thank you for the invitation. I am very 
honored to be here to testify before Congress.
    Some of the things that I would like to present are the 
things that we deal with on the probation level. These are 
issues that I deal with on a day-to-day basis.
    We have had several--I carry a caseload of about 250, I 
would say that about 65 percent of my caseload is Hispanic. I 
am of Hispanic descent, so therefore, I am able to tap into 
some resources that most people probably would not be able to. 
And what I have done is pretty much done a presentation, just 
highlighted some of the issues that I deal with in the law 
enforcement area to also support what the other agency has 
actually addressed here.
    One of the main issues that I have in my department is 
actually--or actually in all of the probation or parole 
department, is actually immigrants who are providing false or 
fictitious names to agencies. This makes it very, very 
difficult for us to determine who that person is. When we are 
running criminal histories and putting in that name, we are not 
sure who actually is--who that person is, which makes it very, 
very difficult to arrest, if we have to make an arrest.
    Other things that the probation and parole department deals 
with is falsifying Social Security cards from alternative 
unauthorized establishments or others possessing Social 
Security cards that are borrowed from other people. Once again, 
this poses a problem when we are doing criminal history 
background checks because if we run--if we put the Social 
Security number into the GCIC or NCIC data base, what happens 
is that particular Social Security may go with another name.
    Issuing licenses to immigrants without passing 
qualifications is another issue that is a very big concern to 
probation and parole for the fact that we are not sure how they 
are obtaining these licenses. Some of the things that I have 
been able to tap into, the sources that I have been able to tap 
into, is that according to some of these immigrants--and once 
again, I can pretty much visit with them and find out some 
things that I need to know--is that there are several States 
within the United States which do not ask for any type of ID 
like Social Security or a photo ID and they can go ahead and 
pick up these licenses. Then they come into our State, commit 
the infractions here and once they have met the conditions of 
probation or parole, they fix their information here and they 
go back to those States to go get licenses again.
    Also the DUI and risk reduction programs are issuing 
certificates to immigrants who have not properly met their 
criteria requirements. I do not understand how someone can go 
and sit in an English speaking DUI class and obtain a 
certificate when they do not speak English themselves. That is 
very, very difficult, but we do have agencies who actually are 
doing that. And I do not know if it is for the money or what 
reason they are doing it for other than the money, but the 
immigrants are getting ahold of DUI certificates and going and 
getting licenses as well.
    The main--one of the main things that concerns a lot of the 
citizens, and this has been brought to my attention----
    Mr. Barr. Excuse me, Mr. Chairman, could I go out of order 
and just ask one quick question just on that one point that Ms. 
Cole mentioned?
    Mr. Mica. The gentleman is recognized. If you do not mind, 
we will interrupt.
    Ms. Cole. No.
    Mr. Barr. What happens when they go back into court, does 
this raise a question in the judge's mind?
    Ms. Cole. Yes, it does, sir, it does. And I am able to 
actually, in my department--and I hate to use the word 
manipulate, but manipulate the situation into being able to get 
the answers that I need in order for these individuals to tell 
me where they are getting their driver's license at, how they 
are getting their driver's license or fake Social Security 
cards, and why they continue to keep producing a new license 
every time they come through this court.
    Mr. Barr. Thank you, Mr. Chairman.
    Mr. Mica. If the witness would continue.
    Ms. Cole. Another issue that--there are several others, but 
this is one that I feel is very, very critical is how an 
illegal alien is able to buy a vehicle without any type of 
insurance or proof of driver's license. And this is not from 
the big dealerships that I am actually addressing, these are 
from the small dealerships that are actually out there on the 
corner of certain streets that they are able to purchase 
vehicles and drive them off the parking lot with no type of 
identification whatsoever.
    Those are some of the issues that I have pretty much 
confronted in the department of probation and parole and I know 
that those are issues that we deal with. I deal with the 
recidivism of the Hispanics when they do come in. They come in 
with one name at first, turn around and they come in with 
another name the second time around, come with another name and 
then we are having--and if you have a probation officer that is 
able to identify that person on those occasions, then you have 
to take all that information and consolidate it so that we can 
build a criminal history on that particular person. Now the 
question is, who is that person.
    Mr. Mica. Thank you. I guess that concludes your testimony?
    Ms. Cole. Yes, sir.
    Mr. Mica. I would like to now recognize Mr. Dan Bowles, a 
local business owner.
    Mr. Bowles. Thank you very much for the opportunity here 
today. I own the Texaco Express Lube at Powder Springs and 
Garrison Road, it is about half a mile off the square in 
Marietta, I have been there approximately 11 years and I just 
opened a brake and tire center directly behind it for about 
2\1/2\ years.
    We have got a terrible problem with day laborers loitering 
and hanging out in front of our business. And in a two block 
area in front of about 8 to 10 businesses, we have at least 100 
to 200 day laborers on a daily basis out there. In front of our 
business, it is not uncommon to have 15 to 30 at one time on a 
given day and some of the effects of this are it is a decrease 
in our car count, which is what our business operates on 
basically. It is not what one desires when you are starting a 
new business as well. We have had no increase in our sales in 
the last year because the problem has gotten a lot worse, 
especially in the last 6 to 9 months. We feel like we are 
probably losing $3,000 to $6,000 in revenue, you know, just on 
a monthly basis, just in sales.
    Our landscaping has been trampled and destroyed in front of 
our business, trash and litter is a constant problem, we have 
to police it on a daily basis. We deal with a lot of customer 
complaints regarding the situation. We have had well over 500 
complaints from our customers where men and women both tell us 
they were afraid to pull in the location, they saw a group of 
people out front, they didn't want to pull in our business. We 
call the police one to two times a day, 6 days a week; 10 
minutes after the police leave, basically the people are right 
back out front looking for work.
    It appears to me that the police do not have any authority 
to do anything about this situation, especially with the 
current loitering and trespassing laws in the city of Marietta, 
where my business is located. So I guess that is where it is 
applicable there.
    We have had some of the same individuals, especially the 
ones that do not get picked up for work it seems like, they 
tend to want to congregate in the rear of the business. So 
usually 8 to 10 is when most of them get picked up. If they do 
not get picked up, they tend to go to the gas station next door 
and pick up beer or whatever and they sit up on the hill behind 
our business and they drink most of the day and they litter. We 
have had a lot of problems with that as well. We have even been 
cited by the City for trash, rubbish and debris on the vacant 
lot behind our business, which none of it was our doing, but we 
are responsible for picking up and paying to keep this clean.
    Some of the preventive steps we have taken, you know, just 
to combat the problem, is that we have put up barbed wire on 
the back of the property line. I would like to make a note, 
there is an apartment complex directly behind us where a lot of 
these people are residing and they are walking, you know, down 
in front of our business location for work. We have posted it 
with no trespassing signs. After replacing the signs three to 
four times and replacing the barbed wire where it has been cut, 
it is a bit frustrating. We have talked with the local police 
and they have their bike patrol back there now. They have put 
new signs in Spanish and English and they are patrolling back 
of the property basically.
    We have made sure that our pay phones had no incoming 
calls, we have had Cobb County Transit, after about 6 or 8 
months of fighting and talking with them, remove the bus stop 
in front of our location. We have also discussed hiring 
security guards amongst some of the local businesses there to 
have somebody patrol in front of our business locations, you 
know, in the 8 to 10 a.m. hours of the day I guess. We formed a 
committee called Clean Up Powder Springs Streets, that consists 
primarily of homeowners, business associates, residents, 
attorneys and so forth. And we have contacted our local police 
department, the city planning and zoning department, 
councilmen, mayors and commissioners and we have discussed all 
this with them and I have got a sheet I will be glad to give 
you on basically what we have done with our committee there.
    We have discussed strengthening the loitering laws and the 
trespass laws. They also have a law allowing sting operations 
on the city square in Marietta but we are trying to get them to 
expand that for the whole city, maybe to help combat the 
problem somewhat there.
    Just a few incidents here. There is an insurance agent that 
was there when I started my business, Ward Proctor, he moved 
just recently, he said he had had enough with the situation. 
Fortunately for him, he just leased his location, so he was 
able to up and move across town.
    Operama Pools has been there 40 years, it is a family owned 
business, Karen Scherer is the operator. They had never had any 
break-ins their first 39 years in business, they have had five 
to six in the last year alone.
    My Express Lube, I told you I have been there 11 years. In 
the fall of 1997, us as well as the gas station beside us were 
both vandalized, just our location alone had over $20,000 worth 
of vandalism in the area there.
    There are several other incidents that I do not have a 
whole lot of details on, but there has been increase in traffic 
accidents in the area. Several pedestrians especially have been 
hit. One of the biggest problems is they are darting across 
five lanes of traffic trying to get to a contractor to get 
work.
    Also, one other note I would like to make, based on 
Marietta Police records, 600 Powder Springs Street, which is 
the area from 596 to 600 Powder Springs Street, that is their 
No. 1 call-in zone in the city of Marietta for crime, and 
basically it has been because of the loitering incidents and so 
forth, just the things going on in front there.
    That is just basically what we are having to deal with 
there at our location.
    Mr. Mica. I thank you both for your testimony.
    Ms. Cole, let me ask you a few questions if I may. Tell me 
your agency again, you are part of the State parole?
    Ms. Cole. I work for the city of Smyrna Probation, it is 
the Smyrna Probation Department, sir.
    Mr. Mica. Only with jurisdiction within the city?
    Ms. Cole. Yes, sir.
    Mr. Mica. So you are dealing with parole cases for the city 
only, not State or Federal?
    Ms. Cole. That is correct and all of them are misdemeanor 
traffic offenses, DUIs, VGCSAs and city ordinances.
    Mr. Mica. And what estimate of your problems or your cases 
deal with illegal aliens?
    Ms. Cole. The majority of them are no proof of insurance, 
DUIs, invalid licenses and no license.
    Mr. Mica. But are they illegals or are they----
    Ms. Cole. Yes--well, no, they are--it is everyone, but I 
would say there are so many, DUIs are very high with Hispanics. 
No proof of insurance and no license are other high, but as far 
as illegals, no; we deal with anyone who comes through the city 
of Smyrna.
    Mr. Mica. Can you estimate for us how many may fall into 
the illegal realm?
    Ms. Cole. I am not familiar with Smyrna other than what I 
deal with in my department, so I really could not answer that, 
sir.
    Mr. Mica. Well, in your department.
    Ms. Cole. I would say that probably maybe 40 percent--and I 
may be underestimating--are, the majority of those caseloads 
are illegal aliens.
    Mr. Mica. Forty to fifty percent?
    Ms. Cole. I am sorry?
    Mr. Mica. Forty to fifty percent?
    Ms. Cole. Yes, sir.
    Mr. Mica. Is there anything at the Federal level you think 
we can do that would help resolve this problem?
    Ms. Cole. I know that there is a lot that Congress is 
doing, and as I heard testimony earlier from the Immigration 
Department, that they do ship and deport a lot of felonies, 
people that are felony offenses, but there is not anything 
being done for the misdemeanor cases.
    Mr. Mica. So the aggravated felonies which the U.S. 
Attorney testified to and which the law I guess specifically 
addresses are the focus of attention, but there are a lot of 
other people falling through the cracks and you are dealing 
with misdemeanors and other local ordinance violations to the 
tune of 40-50 percent that may be committed by those illegals; 
would that be a fair statement?
    Ms. Cole. Yes, sir, that is correct.
    Mr. Mica. And my question was the Federal Government, you 
said they are doing some things, but there is nothing under 
Smyrna's jurisdiction to deport these folks or handle the 
situation, no reimbursement for costs; is that correct?
    Ms. Cole. That is correct, not that I am aware of at this 
time.
    Mr. Mica. These are not felony cases, but lower level 
crimes, are there any Federal assistance programs, to your 
knowledge, or any reimbursement for the costs incurred by the 
local community for these expenses?
    Ms. Cole. Not that I am aware of, sir.
    Mr. Mica. And tell the panel, if you will, is this 
something that--how long have you been with the agency?
    Ms. Cole. I have been here for almost 9 months, but I have 
been in probation for over 4 years.
    Mr. Mica. For 4 years.
    Ms. Cole. Yes, sir.
    Mr. Mica. Was it this severe 4 years ago? I mean are we 
seeing the same level of problem or is there an increase? 
Describe for the panel what you have seen over the 4-years you 
have observed this problem.
    Ms. Cole. The problem has increased. I was in Floyd County 
before and I dealt with probation in Floyd County and from the 
time that I began back in 1995 up to the current, I have seen 
that this problem is getting progressively worse instead of 
better.
    Mr. Mica. I appreciate that.
    Mr. Bowles, you have certainly described the impact on your 
business, I guess you are the owner of the business?
    Mr. Bowles. That is correct.
    Mr. Mica. And you have been in business 11 years.
    Mr. Bowles. Right.
    Mr. Mica. How would you describe the evolution of this 
problem, has it been all 11 years or you have seen most of the 
increase over what period of time?
    Mr. Bowles. The problems really just started in the last 2 
years, in the last year it has probably tripled. Like I say, 
there are 8 to 10 businesses in the location that are impacted.
    Mr. Mica. Are there other areas of the community that are 
impacted? Is there some reason why you have been picked out for 
this particular----
    Mr. Bowles. Several years ago, the problem persisted on the 
square in Marietta and like I say, they created a task force 
having sting operations and they have basically moved the 
crowd, dispersed them and they have filtered down and over the 
course of a couple of years, now they are congregating in front 
of our six to eight businesses there.
    Mr. Mica. And you have seen a dramatic increase in crime, 
you said, not only----
    Mr. Bowles. Right, mainly in the last year.
    Mr. Mica. In the last year.
    Mr. Bowles. Year, year and a half.
    Mr. Mica. Is there any program you are aware of that the 
locals or Federal or States have undertaken to deal with this 
problem?
    Mr. Bowles. Based on my experience, I do not really feel 
that, you know, there is anything on the books that gives the 
law enforcement the authority to do anything. We have met with 
this committee I mentioned and, you know, basically they have 
mentioned, you know, putting a security guard out front, taking 
a warrant out on each individual but that is very time-
consuming and costly for a business owner. It is hard to 
identify when they are in such large groups and they disperse 
and come back. It is really--I do not know that there is, you 
know, anything on the books right now that gives them the power 
to do something like that.
    Mr. Mica. What recommendation do you have to this Federal 
panel to deal with the problem?
    Mr. Bowles. Well, basically I feel that the INS is lacking 
support because on one incident we called--I had a cousin come 
in from Hiram/Dallas area, 15 to 20 miles away. I asked him 
what he was doing, he is in the construction business. He said 
we heard this is where you pick up day laborers. I said well, 
you heard right. He had a Hispanic working with him that had 
been employed for him 2 years, he is legal. They went out and 
talked to about 30 people, 20 minutes later he comes back and 
says we just talked to 30 people out front and only 2 of them 
had their green cards. So, you know, out of that percentage, a 
large number of them were illegal. Now this has been probably 6 
months or so ago. We contacted the INS and basically we were 
told they did not have the manpower to deal with our problem.
    Mr. Mica. You contacted them how long ago, 6 months?
    Mr. Bowles. Roughly, yes, sir.
    Mr. Mica. And they have not sent any enforcement people 
out?
    Mr. Bowles. Not to my knowledge.
    Mr. Mica. So I guess your recommendation would be to 
provide the resources so you can stay in business.
    Mr. Bowles. Right. Locally, I am interested in some of the 
laws that the other police officers have proposed in like the 
Chamblee area and so forth. We have talked to the police 
officers on a daily basis when they come out and one of the 
things we proposed, you know, amongst ourselves with them is if 
we could put a law on the books basically stating it is illegal 
to pick up day laborers unless it is a specified location. We 
feel this would give the police officers some authority to make 
arrests, we feel it would centralize the location for them to 
be picked up and----
    Mr. Mica. You are in Marietta.
    Mr. Bowles. That is correct.
    Mr. Mica. And did I hear, I think one of the gentlemen, the 
representative from Dalton, did they not enact a law similar to 
what you are talking about?
    Mr. Bowles. They had a day labor law I think he mentioned 
in Chamblee.
    Mr. Mica. In Chamblee. So you are recommending the locals 
enact something like that?
    Mr. Bowles. I think it would be beneficial.
    Mr. Mica. Well, I appreciate both of your testimonies this 
afternoon. I yield now to Mr. Barr.
    Mr. Barr. Thank you, Mr. Chairman.
    Mr. Bowles, followup on the last point that the chairman 
asked about, have you had the opportunity to speak directly 
with the city attorney about the possibility of drafting such 
an ordinance?
    Mr. Bowles. We have met with the zoning and planning 
department, Judy Garrett is her name, and she is working as the 
liaison between all the city department heads--we talked with 
our representatives out at my location, the mayor has been 
invited to our meetings, she has not shown. We have talked to, 
like I say, the councilmen and just some of the local people 
there. We have not gotten any results as of yet.
    Mr. Barr. Which councilman has your area?
    Mr. Bowles. Johnny Sinclair is the one that we have spoken 
with. I spoke with him again today and, you know, just followed 
up on our meeting 2 or 3 weeks ago to see if he had made any 
progress and of course he did not have anything for me at this 
time.
    Mr. Barr. Have you contacted our office in Marietta, spoken 
with anybody there?
    Mr. Bowles. I believe Fred Akin was present at one of our 
meetings.
    Mr. Barr. The gentleman back there?
    Mr. Bowles. That is correct, yeah.
    Mr. Barr. Let the record reflect it is the distinguished 
gentleman in the gray jacket, gray hair and the gold rimmed 
glasses.
    Mr. Bowles. But he was present at one of our meetings. And 
like I say, it is mainly just a concerned group of citizens in 
the area, they are worried about their property values going 
down and mainly the south side of Marietta is just getting 
really run down and a lot of people tend to want to avoid the 
area. And you know, you hate to see it happen because it just 
came about so quick and I feel like, basically, that if there 
was some type of law enforcement or something that the police 
officers could do, that we could deter the problem. 
Centralizing them would make it a lot easier to--you know, that 
would make the ones that are legal want to go there and if you 
wanted to set up any communication or what-not with this group, 
you know, it would make it possible. The ones that would be 
left out would probably be the ones that are illegal. And you 
know, those are the ones that I guess we need to be dealing 
with.
    Mr. Barr. Also, Moore, could you identify yourself? This is 
Mr. Moore Hallmark, who is our legislative director for the 
district. If you would contact him, we would be glad to assist 
in any way we can.
    What is there--and I am very familiar with the area, I 
drive by it virtually every day that I am in the district 
because it is between our district office and other parts of 
the district and our house and so forth. Is it your area that 
sort of became the magnet for a lot of these folks because it 
is the first area as you are coming from the square past the 
conference center resort that has some open area where they can 
sort of hang out and there is room for trucks to drive into?
    Mr. Bowles. Like I say, the problem existed on the square, 
there is an apartment complex behind us and the zoning and 
planning department has been back there checking code 
enforcement and so forth. They keep the premises very neat. 
There is also a lot of rental houses on the opposite side of 
the street in that particular area and that seems to be where a 
majority of them are residing. Also before they moved the bus 
stop, I mean it was not uncommon to see them on the buses 
unloading at our location. How they picked it, I do not know, 
but we would love to have something done about it if possible.
    Mr. Barr. Well, I think there should be some solutions and 
I know it is a difficult balance that local governments have to 
deal with because of certain court rulings, but there have been 
jurisdictions such as perhaps Chamblee that might be able to 
provide some guidance for us.
    I was also interested, I was not aware of the fact that the 
city has authority or has given itself authority to conduct 
sting operations on the square but not in other parts of the 
city?
    Mr. Bowles. That was our understanding. We have had several 
representatives from the police department at some of our 
meetings and basically they said that that was on the books in 
the city limits on the square there--excuse me, on the square 
only, but not for the entire city. And I have talked to Mr. 
Sinclair, our councilman, about maybe expanding that zone. And 
like I say, that is one of the things I have asked him to work 
on for us.
    Mr. Barr. OK. I know Mr. Szafnicki is still here, we 
appreciate Mr. Szafnicki sticking around the hearing today and 
I know he is very concerned about these things. With INS 
generally though, it is just a matter of getting the resources 
to them. And that is why this hearing today, including your 
testimony, is very, very valuable to us. And if you would, 
contact Mr. Hallmark and we will be glad to do whatever we can 
to assist in the effort. Ultimately, it is going to have to be 
something at least on the local level that the city can do, but 
we can certainly help out whatever way we can and we will 
certainly help out in what we are doing today in following up 
on this. I know this is a concern to the chairman as well.
    Ms. Cole, I know that, as you indicated previously and as I 
know, you have extensive background in a lot of these matters 
dealing with the problems of immigration and the impact of 
illegal immigration on individual communities, whether it is 
our court system, schools, businesses and so forth. And your 
background prior to the time when you have been down here in 
Smyrna has been up in Floyd County, Rome, Floyd County area.
    Ms. Cole. That is correct.
    Mr. Barr. Are the problems that you are seeing pretty much 
the same, they just seem to keep getting worse because there is 
no handle we can get on them, or is the nature of the problem 
changing?
    Ms. Cole. The problem is getting worse. I know when I was 
in Floyd, I was very isolated from this area. When I came out 
here, I could see that the problem, you know, here is much 
bigger than it is in Floyd County because we are dealing with 
the--Cobb seems to be the central and then we are dealing with 
all the outer counties or other areas around there. So I do see 
that it is getting progressively bigger at this time.
    Mr. Barr. Do you deal at all with INS directly yourself?
    Ms. Cole. No, sir, I do--well, I take that back, I do on 
occasion if one of the offenders actually ends up getting a 
felony charge or receiving a felony charge. At that point in 
time, I normally will submit a modification to the judge after 
I receive all the paperwork from whatever county is submitting 
it to my agency or department and then basically terminate the 
case and suspend everything that is with this particular 
department. And then I just make a telephone call to INS, if 
there is a contact person; 9 times out of 10, I just submit it 
back to that agency and tell them that everything is terminated 
here and they can proceed with whatever they need to do at that 
time, at that local agency.
    Mr. Barr. Would it be fair to say that of course your 
primary concern is, as a probation officer, fulfilling the 
mandates of your job, fulfilling your job? Would it also be 
fair to say that your primary concern has nothing to do with 
being anti-immigrant because obviously you are not, none of us 
are, but the public safety?
    Ms. Cole. That is correct.
    Mr. Barr. Where you have people who are driving cars, 
getting DUIs, getting their licenses back, using false 
identification to get cars without having proved safe to drive 
in the community. Is this a major concern of yours?
    Ms. Cole. Yes, it is. Not to stress any kind of negativity 
toward any immigrants because of course my family did come in 
legally once again, and then became natural citizens. But my 
primary concern is the safety of the community. Anyone who 
receives a DUI and goes and has an accident, a person is 
injured in the other vehicle or possibly killed, now we have 
got a different situation to deal with and I am seeing that 
more and more--well, on the level that I am in, I am seeing 
that we are having a lot of people coming in here who are 
driving with no proof of insurance or license and they cannot 
be held accountable to rectify the problem to the other person, 
the victim who is actually involved, because they leave the 
country or we do not know who they are, they change their name 
about midway and they disappear off the face of the Earth. And 
now we have got a victim here who has no compensation to do the 
repairs on their vehicle or if there is any type of injury, to 
reciprocate those funds in order for them to go ahead and take 
care of that as well.
    Mr. Barr. Mr. Bowles, you indicated earlier that during 
these past couple of years since this problem has manifested 
itself, you have incurred some degree of expense.
    Mr. Bowles. Right.
    Mr. Barr. Lost income, lost profits as well as damage to 
your property. Has there been any injuries that anybody has 
suffered yet on your property as a result of this?
    Mr. Bowles. Not necessarily on our property, but like I 
say, there have been several reports of, you know, pedestrians 
being hit primarily from the traffic where there is a lot of 
people out in the area and so forth. We have seen several 
fights break out in the parking lot, you know, amongst 
themselves. I do not know what they are scrapping over, but you 
know, the police have had to come in and break it out. That 
used to be not a common thing around there.
    Mr. Barr. Is the problem in the morning that the employers, 
let us call them, who are seeking these day laborers, do they 
come onto your property to solicit and pick up?
    Mr. Bowles. We are a Texaco Express Lube and right beside 
us there used to be a Texaco gas station, they just sold out to 
Exxon, but there is a food store and a gas station. And 
basically that is where the majority of these people are 
coming, they are waiting on the contractors to pull in there to 
get their coffee and gas in the mornings and if you pull up in 
a truck, you know, it is not uncommon to have three or four 
guys jump in the back of your truck and not even say anything, 
they just try to get in, like you are in a truck and they want 
you to go do some work for them.
    So it is a growing problem and it is very intimidating, 
especially to young ladies.
    Mr. Barr. Thank you both very much for your work and for 
being with us today. Thank you, Mr. Chairman.
    Mr. Mica. I would like to thank both of you for your 
testimony and again, as I relayed to the other panels, we 
particularly appreciate those at the local level and 
particularly the private citizens or those with local agencies 
testifying before our subcommittee to provide us with some 
insight and also recommendations and personal experiences to 
how we can do a better job in enforcing and applying the laws 
at the Federal level and also changing the administration and 
execution of the Federal policy that evolves from our Federal 
laws.
    So we again thank both of you for coming, being part of 
this subcommittee and providing us with your testimony this 
afternoon.
    Now, as I did say--and we will excuse you at this time.
    As I did say, we will leave the record open for 5 days for 
additional questions that will be submitted to some of our 
panelists. Anyone who would like to make comments can address 
them to the subcommittee or contact us and we will make certain 
that they are made a part of the record.
    There being no further business--excuse me, Mr. Barr?
    Mr. Barr. If I could once again thank you and Ms. Lee Smith 
here with us today and Mike that came with you today, very much 
for the time and preparation for and conducting these hearings. 
I would also like to especially commend you, Mr. Chairman, for 
properly pronouncing the name of our city here, it is Smyrna. 
We have a lot of visitors that need to be corrected when they 
come here and say they are very happy to be in Smyerna. 
[Laughter.]
    Mr. Mica. Well, I have New Smyrna Beach in Florida, which 
is part of my district, so I feel very much at home.
    We do thank the local officials for the use of their 
beautiful city hall facility, and again, for the cooperation of 
all those who have participated in our subcommittee hearing 
this afternoon.
    There being no further business to come before the 
subcommittee, this meeting is adjourned.
    [Whereupon, at 4:16 p.m., the subcommittee was adjourned.]

                                   - 

</pre></body></html>
